<html>
<title> - THE GLOBAL FIGHT TO END MODERN SLAVERY</title>
<body><pre>[Senate Hearing 115-816]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 115-816

                    THE GLOBAL FIGHT TO END MODERN SLAVERY

=======================================================================

                                HEARING



                               BEFORE THE



                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE



                     ONE HUNDRED FIFTEENTH CONGRESS



                             SECOND SESSION

                               __________

                           NOVEMBER 28, 2018
                               __________


       Printed for the use of the Committee on Foreign Relations




              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                   Available via the World Wide Web:
                         http://www.govinfo.gov





                      U.S. GOVERNMENT PUBLISHING OFFICE
                      
40-475 PDF                 WASHINGTON : 2020 


















                 COMMITTEE ON FOREIGN RELATIONS        

                BOB CORKER, Tennessee, Chairman        
JAMES E. RISCH, Idaho                ROBERT MENENDEZ, New Jersey
MARCO RUBIO, Florida                 BENJAMIN L. CARDIN, Maryland
RON JOHNSON, Wisconsin               JEANNE SHAHEEN, New Hampshire
JEFF FLAKE, Arizona                  CHRISTOPHER A. COONS, Delaware
CORY GARDNER, Colorado               TOM UDALL, New Mexico
TODD YOUNG, Indiana                  CHRISTOPHER MURPHY, Connecticut
JOHN BARRASSO, Wyoming               TIM KAINE, Virginia
JOHNNY ISAKSON, Georgia              EDWARD J. MARKEY, Massachusetts
ROB PORTMAN, Ohio                    JEFF MERKLEY, Oregon
RAND PAUL, Kentucky                  CORY A. BOOKER, New Jersey
                  Todd Womack, Staff Director        
            Jessica Lewis, Democratic Staff Director        
                    John Dutton, Chief Clerk        



                              (ii)        

  

















                            C O N T E N T S

                              ----------                              
                                                                   Page

Corker, Hon. Bob, U.S. Senator From Tennessee....................     1

Menendez, Hon. Robert, U.S. Senator From New Jersey..............     2
    Prepared statement...........................................     3

Richmond, Hon. John Cotton, Ambassador-at-Large, Office to 
  Monitor and Combat Trafficking, U.S. Department of State, 
  Washington, DC.................................................     4
    Prepared statement...........................................     6

Grant, Natalie, Co-Founder, Hope for Justice, Nashville, 
  Tennessee......................................................    19

Bader-Blau, Shawna, Executive Director, Solidarity Center, 
  Washington, DC.................................................    21
    Prepared statement...........................................    23

              Additional Material Submitted for the Record

Responses of Ambassador John Cotton Richmond to Questions 
  Submitted by Senator Robert Menendez...........................    37

                             (iii)        

 
                     THE GLOBAL FIGHT TO END MODERN SLAVERY

                              ----------                              


                      WEDNESDAY, NOVEMBER 28, 2018

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:33 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Bob Corker, 
chairman of the committee, presiding.
    Present: Senators Corker [presiding], Menendez, Risch, 
Cardin, Shaheen, Coons, Flake, Gardner, Young, Udall, Kaine, 
and Markey.

             OPENING STATEMENT OF HON. BOB CORKER, 
                  U.S. SENATOR FROM TENNESSEE

    The Chairman. The Foreign Relations Committee will come to 
order. Today we will once again shine a light on the global 
fight to end modern slavery. This could be my last legislative 
hearing as chairman, and of all the work that we have done 
together on this committee, the fight against modern slavery 
stands out.
    I am proud that Senator Menendez and I worked to pass 
legislation with the entire committee, establishing the global 
fund to end modern slavery that has finally launched a truly 
global effort to end it, with major contributions from the 
United States, the United Kingdom, and now private donors and 
others. I will say that amount has now reached over $110 
million in a global public-private partnership, something that 
I think this committee and our country should be very proud of.
    All of the senators on this committee have helped to lead 
this work, and we are hopeful that what we have done will make 
a big difference in the lives of so many people who suffer in 
bondage throughout the world.
    As I turn the gavel over to my successor here in the next 
few weeks, I only ask that you all continue to carry on this 
fight with us and those who are appearing before us today on 
this committee. And I know John is very committed to this 
effort, and has been involved personally for many, many years 
in this same effort.
    Our time this morning will be short. We have another 
commitment at 11:00. I know that Senator Menendez and I both 
want to be there before it begins for many reasons. And so we 
probably will cut this hearing a little bit short to make sure 
that occurs.
    We have two distinguished panels. We welcome first 
Ambassador John Richmond, who was just sworn in by Secretary 
Pompeo as the new ambassador-at-large to monitor and combat 
trafficking in persons. Again, we thank you for your commitment 
to this effort for a lifetime, and what you are bringing to 
this office.
    We are thankful for the important role you will play in 
continuing U.S. leadership to eliminate slavery wherever it is 
occurring around the world.
    Our second panel, we are pleased to welcome Natalie Grant 
and Shawna Bader-Blau. As one of our state's most talented 
singer/songwriters, Natalie needs no introduction, except to 
say that as part of her personal calling she has been a 
tireless leader in the battle against modern slavery.
    Shawna equally has been a powerful voice for workers' 
rights, and in the movement to end all forms of modern slavery, 
especially forced labor. Welcome back, Shawna.
    With that, I ask Senator Menendez, my friend, if he wishes 
to offer any opening comment.

              STATEMENT OF HON. ROBERT MENENDEZ, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Menendez. I do, Mr. Chairman. Thank you very much, 
Mr. Chairman.
    Mr. Chairman, since I believe this will be your last 
hearing, let me thank you for your dedication to this issue. I 
believe it is a legacy item for you, and fitting and 
appropriate. I think all of us on the committee recognize that 
without your clarity of vision about confronting the--that is 
modern slavery, it would never have received the amount of 
attention it truly deserves, both in this body, and I believe 
as a policy initiative of the State Department.
    You have been a great partner on this issue. Your 
leadership will be sorely missed, but we will try to keep the 
flame burning, as I----
    The Chairman. I have no doubt you will keep a flame 
burning.
    [Laughter.]
    Senator Menendez. Hopefully, it will not torch anything 
along the way.
    [Laughter.]
    Senator Menendez. Okay. This is one of the reasons I am 
going to miss you.
    Human trafficking in the form of sexual exploitation, 
forced labor, and forced marriage, is a moral stain on our 
collective conscious, and one of the greatest challenges of our 
time. The International Labor Organization estimates that as of 
2016 over 40 million people were victims of human trafficking 
around the world, 10 million of whom were children. Despite 
efforts by the United States, and steadfast and dedicated 
individuals and organizations exploitation of the less powerful 
continues.
    Forty percent of these victims were subjected to forced 
labor in the private sector, coerced or threatened into making 
electronics, clothing, and food that are traded across borders, 
and end up on store shelves across our country.
    An additional 4 million trafficking victims were forced to 
work by their governments, governments that should be 
protecting and empowering the most vulnerable members of 
society, instead of exploiting their sweat and toil.
    It is estimated that forced labor alone generates over $150 
billion in profits annually, making it the second largest 
income source for international criminals, next to the drug 
trade. Sadly, it still remains far too profitable for 
traffickers to trap innocent people striving for a better life 
in labor or sexual exploitation.
    Ending modern slavery demands a multifaceted thoughtful 
response from businesses, foreign governments, and civil 
society. Ending modern slavery also requires strategic policies 
from this administration, rather than policies that effectively 
provide opportunities for traffickers.
    President Trump's unconscionable immigration policies, 
separating children and parents, forcing undocumented workers 
underground, making victims of violence fearful of law 
enforcement officials, are putting people at greater risk for 
abuse, forced labor, and human trafficking.
    Many trafficking victims fear that they may be at risk for 
deportation, even if they are working legally in the United 
States, are now too frightened to call the police, report labor 
abuses, or sexual assault, other authorities. Calls to the 
National Human Trafficking Hotline have fallen.
    So these are just some of the issues I look forward to 
discussing with Ambassador Richmond. I ask that in the interest 
of time my full statement be included in the record, Mr. 
Chairman.
    [The prepared statement of Senator Menendez follows:]

             Prepared Statement of Senator Robert Menendez

    I want to thank the Chairman for calling this hearing and for his 
unending dedication to this important issue. Human trafficking--in the 
form of sexual exploitation, forced labor, and forced marriage--is a 
moral stain on our collective conscious and one of the greatest 
challenges of our time.
    The International Labor Organization estimates that as of 2016, 
over 40 million people were victims of human trafficking around the 
world--10 million of whom--were children.
    Despite efforts by the United States and steadfast and dedicated 
individuals and organizations, exploitation of the less powerful 
continues.
    Forty percent of these victims were subjected to forced labor in 
the private sector--coerced or threatened into making the electronics, 
clothing, and food that are traded across borders and end up on store 
shelves across our country.
    An additional 4 million trafficking victims were forced to work by 
their governments--governments that should be protecting and empowering 
the most vulnerable members of society instead of exploiting their 
sweat and toil.
    It is estimated that forced labor alone generates over 150 billion 
dollars in profits annually . . . making it the second largest income 
source for international criminals next to the drug trade. Sadly, it 
still remains far too profitable for traffickers to trap innocent 
people striving for a better life in labor or sexual exploitation.
    Ending modern slavery demands a multi-faceted, thoughtful response 
from businesses, foreign governments, and civil society. Ending modern 
slavery also requires strategic policies from this administration, 
rather than policies that effectively provide opportunities for 
traffickers.
    President Trump's unconscionable immigration policies--separating 
children and parents . . . forcing undocumented workers underground . . 
. making victims of violence fearful of law enforcement officers. . . . 
are putting people at greater risk for abuse, forced labor, and human 
trafficking.
    Many trafficking victims who fear they may be at risk for 
deportation, even if they are working legally in the U.S., are now too 
frightened to call the police, or report labor abuses or sexual assault 
to other authorities. Calls to the National Human Trafficking Hotline 
have fallen.
    The Trump administration's policy on Notices to Appear (NTAs), has 
made applying for a T-visas too risky for even trafficking victims. We 
also know from experts that trafficking victims are far less willing to 
report to law enforcement, terrified by the administration's anti-
immigrant rhetoric. Sadly, these policies diminish the United States 
and our legal system as exemplars of effectively confronting 
trafficking around the world.
    Ambassador Richmond, we discussed the NTA issue at your 
confirmation hearing. I look forward to hearing from you today what you 
have done--or will do--and soon--to address this administration policy 
that is driving victims of human trafficking further underground. This 
new policy threatens to undo nearly two decades of anti-trafficking 
progress in our country.
    In confronting global human trafficking, the Trump administration 
has walked away from a number of vital global commitments, 
institutions, and initiatives that provide opportunities to effectively 
counter modern slavery. For example, the Trump administration announced 
in December 2017 that the U.S. would withdraw from the U.N.-led Global 
Compact for Safe, Orderly and Regular Migration. The non-binding 
compact directly addressed ways in which governments can combat modern 
slavery.
    Ending modern slavery demands a multi-faceted response from 
businesses, foreign governments, and civil society. But there are a few 
things that we in Congress can do right now.
    We must continue to insist that the State Department honestly 
evaluate government action to combat human trafficking, and I thank the 
Chairman for working with me to ensure that the rankings determined in 
the Trafficking in Persons Report are based solely on the facts.
    We have to hold businesses accountable when forced labor is 
discovered in their supply chains. Earlier this month, an investigation 
published by The Guardian revealed that electronics factories in 
Malaysia still present signs of labor trafficking, years after these 
abuses were first uncovered. We owe it to American workers and the 
victims still toiling in slavery to eradicate abusive labor practices 
and remove any incentives that encourage forced labor.
    We have to be prepared to fight a new front on the war against 
modern slavery taking place on social media. Last week, press reported 
that the father of a 16 year-old South Sudanese girl used Facebook to 
auction off his daughter as a child bride. Although the offending post 
went live on October 25th, Facebook didn't take action until November 
9th, by which time the girl had already been married. Social media 
firms like Facebook need to be more forthcoming and proactive about 
stopping trafficking on their platforms
    Finally, but equally as important, we need to raise awareness--with 
foreign governments, businesses, and the public at large--about the 
pervasiveness of modern slavery.
    This hearing helps raise that awareness . . . With that, I thank 
the Chairman for calling it, and I thank him for his steadfast 
commitment to this issue.
    And, Mr. Chairman, since I believe this will be your last hearing, 
let me again thank you for your dedication to this issue. I think we 
all on the committee recognize that without your clarity of vision 
about confronting the pure evil that is modern day slavery, it would 
never have received the amount of attention it truly deserves. Both in 
this body, and I believe, as a policy and mission of the State 
Department.
    You have been a truly great partner on this issue, and your 
leadership will be sorely missed.

    The Chairman. Without objection. And thank you so much.
    Our first witness is Ambassador John Richmond, our newly 
sworn-in head of the State Department Trafficking in Persons. 
You have been introduced now about four times this morning. 
Again, we thank you for your service, and if you will go ahead 
with your testimony, we would appreciate it.

 STATEMENT OF HON. JOHN COTTON RICHMOND, AMBASSADOR-AT-LARGE, 
 OFFICE TO MONITOR AND COMBAT TRAFFICKING, U.S. DEPARTMENT OF 
                     STATE, WASHINGTON, DC

    Ambassador Richmond. Thank you.
    Chairman Corker, Ranking Member Menendez, members of the 
committee, it is my pleasure to appear before you today. I have 
a tremendous amount of respect for this committee and the work 
you have done to shine a light on this important issue.
    I would also like to thank the two witnesses that will 
appear on the second panel for their contributions to this 
movement.
    I have only been in my new position for a little over a 
month, but I am excited about the team at the State 
Department's expertise, and I have hit the ground running. With 
that, estimated 24.9 million people trapped in modern slavery 
around the world today, one could feel paralyzed by the 
enormity of the crime. But I think it is important to step back 
and remember how far we have come.
    The modern anti-trafficking movement launched globally just 
18 years ago, with the passage of the Trafficking Victims 
Protection Act, followed by the United Nations Palermo 
Protocol. And as we approach the 20th anniversary, we must 
recognize the tremendous successes that we have achieved so 
far.
    A hundred seventy-three nations have now ratified the 
United Nations Palermo Protocol. Government statutes 
criminalizing human trafficking have increased from just 33 in 
2003, to 158 in 2016. Understanding has increased on the 
importance of victim-centered and trauma-informed approaches, 
and not punishing trafficking victims for the crimes their 
traffickers require them to commit.
    Finally, the anti-trafficking community itself has grown 
exponentially. We now see new stakeholders taking action, 
including survivor leaders, the private sector, investigative 
journalists, and academics. And in part, due to these 
achievements, understanding of the realities of trafficking 
around the world continues to grow, and yet needs continue to 
outpace the resources.
    Traffickers rake in huge profits, while facing little risk 
of being held accountable. We lack quality data on sector-
specific prevalence, and on the impact of the field's anti-
trafficking efforts. We lack sufficient global resources to 
combat this crime. And in many places, governments still lack 
the capacity and even the political will to combat trafficking 
effectively.
    One critical tool in eliminating these gaps is the 
effective use of partnerships, known to be a force multiplier 
in the anti-trafficking field. And the partnership I would like 
to discuss in detail today is the Executive-Legislative 
partnership to combat trafficking.
    Bipartisan leadership in Congress has played an enormous 
role in raising the profile of human trafficking, beginning 
with the passage of the Trafficking Victims Protection Act. And 
today, our most high-profile and significant programs owe their 
existence to leaders in Congress who have the vision to see 
real change.
    Let me mention just a few. The Trafficking in Persons 
report itself, mandated in the original Trafficking Victims 
Protection Act in 2000, has become a symbol of United States 
global leadership on trafficking. The recommendations outlined 
in the report form the backbone of our year-round diplomatic 
engagement.
    And as I understand it, many in Congress use the 
recommendations to inform their engagement with foreign 
leaders. This alignment holds great potential for further 
impact, and I look forward to working with this committee to 
continuously refine the report's effectiveness as a diplomatic 
tool.
    The United States Advisory Council on human trafficking is 
another congressionally created initiative that has become 
integral to anti-trafficking work of the federal government. 
The council is comprised of survivor leaders appointed by the 
president, who provide input on federal anti-trafficking 
policies and programs. And in my short time at the Department 
of State, I have already met with the advisory council, and I 
look forward to their next report.
    Another instrumental program is the Child Protection 
Compact partnerships. Due in large part to the efforts of 
former Senator Barbara Boxer, this program represents a unique 
foreign assistance and diplomatic tool that actually requires 
foreign governments to invest in their own anti-trafficking 
programs. And to date, the Trafficking in Persons Office has 
used this program to form partnerships with four governments, 
Ghana, Jamaica, Peru, and the Philippines, and they are showing 
positive initial results.
    And finally, thanks to the leadership of Chairman Corker 
and the support of the members of this committee, and the 
Appropriations Committee, and many others, the program to end 
modern slavery has been funded with a total of $75 million to 
date. And this groundbreaking public-private partnership seeks 
to pair funding with a metrics-based approach, including 
extensive monitoring and evaluation, with the goal of 
measurably reducing the prevalence of human trafficking.
    To date, 46 million has been awarded under this program to 
the Global Fund to End Modern Slavery, and 4 million to the 
University of Georgia's research foundation. One key component 
of the program is leveraging additional resources, including 20 
million pounds already contributed by the United Kingdom. If 
executed well, the Program to End Modern Slavery could have a 
massive measurable impact on this global crime.
    And I mention these important initiatives, not just to 
commend Congress, I mention them to--because they exemplify the 
potential for progress when the Executive Branch works hand in 
hand with the Legislative. We are hopeful that lawmakers will 
continue to make this issue a priority, and to champion it, and 
to make sure critical resources are available.
    I also encourage members to travel, and when you travel to 
raise the issue of trafficking in persons with your 
counterparts in other governments. I would like to have an open 
and regular dialog. In short, I want to be partners with you in 
this fight, because I am confident that together, through a 
sustained, focused, and strategic effort, we can stop 
traffickers, care for survivors, and bring an end to systemic 
human trafficking.
    I look forward to your questions.
    [The prepared statement of Ambassador Richmond follows:]

               Prepared Statement of Ambassador Richmond

    Chairman Corker, Ranking Member Menendez, Members of the Committee, 
it is a pleasure to appear before you today to speak about the global 
fight to stop human traffickers and end modern slavery. We in the anti-
trafficking community have tremendous respect for this Committee and 
the work you have done to shine a light on the offence of human 
trafficking, one of the most compelling human rights and criminal 
justice issues of our time. I would also like to thank the two 
witnesses you have invited to testify on the second panel for their 
contributions to this movement. I am honored to share this platform 
with them today. I have only been in my new position at the helm of the 
State Department's Trafficking in Persons Office for a little over a 
month, but I have to say I am excited by the team's enthusiasm and the 
challenges ahead, and have hit the ground running.
    With an estimated 24.9 million people trapped in modern slavery 
around the world today, one could feel paralyzed by the enormity of 
this crime and cynical about the chances for ending it. But, it is 
important to remember how far we have come. The modern anti-trafficking 
movement launched globally only 18 years ago with the adoption of the 
U.N. Palermo Protocol and the enactment of the United States' 
Trafficking Victims Protection Act (TVPA). As we approach this 
movement's 20th anniversary, we must recognize the tremendous successes 
it has achieved so far:

    <bullet> 173 parties have ratified the Palermo Protocol.

    <bullet> The number of governments that have statutes criminalizing 
human trafficking increased from 33 in 2003 to 158 in 2016.

    <bullet> Since 2009 human trafficking prosecutions globally have 
increased 118% and convictions 166%.

    <bullet> International organizations and regional bodies are 
developing international norms and policies, and providing technical 
assistance to governments.

    <bullet> Understanding has sharply increased regarding the various 
forms of human trafficking, as well as the importance of victim-
centered and trauma-informed approaches, and not punishing trafficking 
victims for crimes their traffickers forced them to commit.

    <bullet> Human trafficking, once a stand-alone issue, is now being 
integrated into other types of policy work, including national 
security, human rights, violence against women, refugee protection, and 
business responsibility.

    <bullet> And, the anti-trafficking community has grown 
exponentially: we now see new stakeholders taking action including 
survivor leaders, the private sector, investigative journalists, 
filmmakers, and academics.

    Understanding of the realities of human trafficking around the 
world continues to grow due, in part, to these achievements, however, 
needs outpace resources. Traffickers rake in huge profits while facing 
little risk of the improved laws holding them accountable. Several 
notable gaps make the challenging task of combating trafficking in 
persons even more difficult.
    Human trafficking is an incredibly difficult crime to measure and 
many traffickers make it difficult to identify victims. We lack quality 
data on sector-specific prevalence and on the impact of the field's 
anti-trafficking efforts. We also lack sufficient global resources 
dedicated to combating the crime. And, in many places, governments 
still lack the capacity and even political will to combat trafficking 
effectively.
    One critical tool to eliminating these gaps is an effective use of 
partnerships focused on achieving specific goals. Such partnerships 
have shown to be a force multiplier in the antitrafficking field, 
encouraging the sharing of best practices, leveraging the benefits of 
comparative advantage, encouraging innovative solutions, and building 
consensus and momentum.
    One notable partnership I would like to discuss in detail today is 
the executive-legislative partnership to combat trafficking.
    Bipartisan leadership in Congress has played an enormous role in 
raising the profile of human trafficking in the United States and 
abroad, beginning with the passage of the Trafficking Victims 
Protection Act and creation of the Trafficking in Persons Office in 
2000. Today, our most high-profile and significant programs owe their 
existence to leaders in Congress--from both sides of the aisle--who had 
a vision to see real change. I am eager to work hand-in-hand with 
Congress to implement these programs in my new role as Ambassador-at-
Large to Monitor and Combat Trafficking in Persons. Let me mention a 
few here:
                     trafficking in persons report
    Perhaps the most well-known of congressionally created anti-
trafficking tools is the annual Trafficking in Persons Report. Mandated 
in the original TVPA, the report has become a symbol of U.S. global 
leadership on human trafficking and is the gold standard around the 
world for assessing government efforts to combat human trafficking 
crimes. The recommendations outlined in the Trafficking in Persons 
Report form the backbone of our year-round diplomatic engagement. And, 
as I understand it, the recommendations are used by many in Congress to 
inform their engagement with foreign governments on human trafficking. 
This cooperation and alignment holds great potential for further 
impact, and I look forward to working closely with this committee to 
continuously refine the report's effectiveness as a diplomatic tool.
                   president's interagency task force
    The original TVPA created the President's Interagency Task Force to 
Monitor and Combat Trafficking in Persons in 2000. This Cabinet-level 
task force now consists of 15 agencies across the U.S. government 
responsible for coordinating efforts to combat trafficking in persons. 
Using a multidisciplinary approach, the task force focuses on victim-
centered enforcement of criminal and labor law, development of trauma-
informed protection measures, support for innovations in research and 
public awareness, and coordination of federal anti-trafficking programs 
and procurement policies.
    On October 11, 2018, the administration convened the latest meeting 
of the PITF. President Trump's participation in the meeting, along with 
Vice President Pence, Secretary Pompeo and several senior White House 
officials, underscored the administration's commitment to combat this 
crime, and Cabinet members demonstrated their commitment to continue to 
chart a strong course forward.
               u.s. advisory council on human trafficking
    Established by Congress in 2015, the U.S. Advisory Council on Human 
Trafficking is another congressionally-created initiative that has 
become integral to the anti-trafficking work of the federal government 
and serves as a model to other governments and NGOs alike. The Council 
comprises survivor leaders appointed by the President who provide input 
on federal antitrafficking policies and programs. As Ambassador, I have 
already met with the Council and I look forward to their insights on 
how to combat this crime.
    Building on the lessons learned from the Council and from 
Congress's leadership, Secretary Pompeo recently announced a 
groundbreaking initiative for the State Department called the Human 
Trafficking Expert Consultant Network. The Network will allow us to 
meaningfully incorporate survivor input into our anti-trafficking work 
while also compensating expert consultants for their time and 
expertise.
                 child protection compact partnerships
    A lesser known program that has become instrumental to the 
Trafficking in Persons Office's anti-trafficking diplomacy and 
programming over the years is the Child Protection Compact Partnership 
program. Created in large part due to the efforts of former Senator 
Barbara Boxer, the Child Protection Compact Partnerships represent a 
unique foreign assistance and diplomatic tool. A partnership is a 
multi-year plan, developed jointly by the United States and a foreign 
government, that documents the commitment of the two governments aimed 
at strengthening the country's efforts to prosecute and convict child 
traffickers, to provide comprehensive trauma informed care for child 
victims, and to prevent child trafficking in all its forms. These 
Partnerships require foreign governments to make their own investments 
in their anti-trafficking programs. To date, using foreign assistance 
resources the TIP Office has used this unique tool to forge strong 
partnerships with four governments--Ghana, Jamaica, Peru, and the 
Philippines--that are showing positive initial results. I am committed 
to continuing to strengthen this model of engagement.
                     program to end modern slavery
    Last, but not least, I would like to talk about an initiative of 
this Committee that I feel has huge potential to transform the battle 
against modern slavery. Thanks to the leadership of Chairman Corker and 
the support of the members of this Committee, the Appropriations 
Committees, and others, the Program to End Modern Slavery has been 
funded with a total of $75 million to date. This groundbreaking public-
private partnership supports transformational anti-trafficking 
programs. Specifically it seeks to pair funding with a metrics-based 
approach, including extensive monitoring and evaluation, all with the 
goal of measurably reducing the prevalence of human trafficking in 
targeted populations in specific countries or regions. This approach is 
important to me personally and something I focused on both in my 
hearing as a nominee and during my swearing-in ceremony: a dedication 
to policy rooted in data and measurable impact.
    The first award under this program was made in 2017 in the amount 
of $25 million to the Global Fund to End Modern Slavery, followed by a 
second award of $21 million to the Global Fund this past September. The 
Office made a third award of $4 million, also in September, to the 
University of Georgia Research Foundation to develop innovative 
research methodologies to measure the prevalence and impact of human 
trafficking in two target countries in Africa. To date, we are 
optimistic about the work of the Global Fund, particularly its work to 
leverage U.S. investments to secure additional international funding. 
By year three, the Global Fund expects to have mobilized $150 million 
in further funding from other governments and private stakeholders. For 
instance, U.K. Prime Minister May pledged =20 million to the Global 
Fund at last year's U.N. General Assembly session. I believe the keys 
to success of the Program to End Modern Slavery include: continued 
support from Congress, an emphasis on other countries and private 
entities contributing funds, and a focused, strategic approach. If done 
well, the Program to End Modern Slavery could have a massive, 
measurable impact on this global crime.
    I mention these important initiatives not just to commend this 
Committee and others in Congress for their leadership. I mention them 
because they exemplify the potential for progress when the executive 
branch works hand-in-hand with the legislative branch--working together 
to create tools, secure resources, and share insights. We are hopeful 
lawmakers will continue to make this issue a priority and champion the 
critical resources that make this work possible.
    For my part, I am excited to take on this new challenge along with 
my colleagues in the Trafficking in Persons Office and look forward to 
working in close partnership with this Committee. I want to encourage 
Members to travel and raise human trafficking with other governments. I 
want to ensure our congressional reports are providing you with 
actionable information, and I want to have an open and regular 
dialogue. In short, I want us to be partners in this fight.
    We have an exceptionally talented group of dedicated professionals 
working year round to fight human trafficking around the world. 
Together, we are all excited to work with you, exploring new and 
creative partnerships to combat human trafficking around the globe.

    The Chairman. Thank you for that great testimony, and I 
will defer, as always, to Senator Menendez.
    Senator Menendez. Thank you, Mr. Chairman.
    Ambassador, we are glad to see that you are one of the few 
that have made it to the committee, and actually got confirmed. 
So we are grateful for your work.
    I agree with you that when the Executive and Legislative 
branch work together we are a more powerful force in this 
regard. So let me turn to the Trump administration's policy on 
notices to appear, now apply to even humanitarian visas, TU and 
VAWA, has made applying for a T visa risky for trafficking 
victims. Experts anticipated the number of T visa filings to 
drop, in light of the administration's policy.
    In addition, experts report that trafficking victims are 
far less willing to report to law enforcement, terrified by the 
administration's anti-immigrant rhetoric. These policies 
diminish the United States as an anti-trafficking leader in the 
world.
    What will you do to curb the damaging NTA policy, which 
threatens to undo nearly two decades of anti-trafficking 
progress?
    Ambassador Richmond. Sir, I appreciate the question, 
because the T visa program, as well as the continued presence 
program, these two pillars of the way that we can make sure 
that victims who are not lawfully present in the United States, 
or undocumented, receive the rights and protections that they 
are entitled to under the law.
    The Continued Presence program offers a legal way to stay 
in the country while the United States continues to investigate 
the crime. It allows a work permit while they do that. It can 
be renewed from year to year as the investigation continues. It 
is an essential tool of law enforcement. And the issuance of 
Continued Presence should be encouraged in every case.
    The T visa program is unique, because unlike the Continued 
Presence program, it is a self-petitioning visa, and victims of 
trafficking should be encouraged to apply for it. It does not 
require the endorsement of law enforcement in order to be 
granted. Although, additional benefits may be----
    Senator Menendez. I do not mean to interrupt you, but my 
time is limited. I appreciate your knowledge of the different 
visas I am talking about. What I am talking about, though, is 
the concern that those who now have to appear in person may 
very well be a barrier to seeking the very visas that you so 
aptly describe are necessary tools. How are we going to 
mitigate that?
    Have you talked to the administration? Are you engaged? I 
know you just got there. Are you going to be engaged in having 
a conversation that maybe this is a universe that does not 
necessarily have to be an appearance in person?
    Ambassador Richmond. Senator, I look forward to the 
interagency process, and through working with colleagues at the 
Department of Homeland Security, and the FBI, as well as the 
Department of Justice, to discuss these issues, and to make 
sure that victims of trafficking are able to receive T visas as 
well as Continued Presence.
    Senator Menendez. I hope you will make that case.
    Now you believe, as I do, I think, that trafficking, 
wherever it takes place, and for whatever purposes people are 
trafficked, is something that needs to be fought, right?
    Ambassador Richmond. Absolutely.
    Senator Menendez. Regardless of where it takes place.
    Ambassador Richmond. Yes.
    Senator Menendez. So you are just recently back from Saudi 
Arabia, I understand.
    Ambassador Richmond. I am.
    Senator Menendez. Saudi has a horrendous record on human 
trafficking, particularly as it relates to domestic workers. 
They recently beheaded a domestic worker from Indonesia, who 
was convicted of murdering her employer, though allegedly died 
in defense, when he was trying to rape her. There are 18 
Indonesian migrant workers on death row in Saudi, according to 
press reports, and that is just one of many.
    Are we going to hold the Saudis accountable, as well as 
everybody else?
    Ambassador Richmond. Sir, I appreciate the question about 
Saudi Arabia. It was one of my first trips, out of serious 
concerns for their implementation of anti-trafficking efforts. 
Not just to protect domestic workers, which gets quite a bit of 
attention, but I was concerned about the lack of sex 
trafficking prosecutions in the country, as well as internal 
trafficking that does not involve any cross-border movement.
    I wanted to make sure that I could see for myself what was 
going on, to meet with officials, to sort of ground truth 
claims that I had been hearing, and will continue that process 
over the next several months as the ratings period continues, 
to make sure that Saudi Arabia's narrative in the Trafficking 
in Persons' report is grounded in fact, and that it is 
accurate, and evidence-based, and that their ranking 
appropriately reflects what----
    Senator Menendez. And if all of those things that you just 
described--I think you have perfected the State Department's 
ability to speak at length, without giving me a direct answer. 
If all of those things apply, will the TIP Report show Saudi 
Arabia to be a country that has a problem in terms of human 
trafficking.
    Ambassador Richmond. The TIP Report will accurately reflect 
what the conditions are on the ground regarding Saudi Arabia's 
approach to trafficking.
    Senator Menendez. All right. Thank you.
    The Chairman. Thank you. Senator Risch.
    Senator Risch. Thank you.
    Ambassador Richmond, thank you for your service, first of 
all, and your commitment to this important cause. I think, and 
sometimes in this committee we do have a tendency to politicize 
everything, and this is a cause that really is not political. 
There is not anybody on this committee that can claim to have a 
stronger feeling about it than any other member of the 
committee. This is an awful, awful enterprise, and we are all 
committed to see that it be done differently.
    So in that regard, the statistics that you have laid out, 
and that we are all familiar with, and have read in the TIP 
Reports, and all that sort of thing, give us the statistics of 
the problems.
    I realize you are new on the job. How are you going to give 
us some metrics as to how we are doing? This is a difficult 
thing to undertake. It is a difficult thing to fix, but we 
really cannot do it unless we actually see what is working, 
what successes we might have. We are all familiar with the 
usual kinds of things that we do. It seems to me this calls for 
much different approaches than the kinds of things we 
ordinarily do when we are trying to manipulate a country to do 
things different, when they are doing bad things. What are your 
thoughts on that?
    Ambassador Richmond. Yes, sir. I very much appreciate the 
question about metrics. I think that it is a critical question. 
There are a few things that we could do as approaches. And one 
is to recognize is there are different types of metrics.
    One is we can measure what we are actually doing. That is 
clear law enforcement data to know how many people are being 
arrested, how many convictions, what are the sentences. We can 
also address how many victims have been identified, how many 
are receiving services. We can measure what is actually 
occurring. And I think that that can be dramatically improved.
    The more challenging metric is what is the prevalence of 
trafficking. And I think that is an area that has plagued this 
issue for many years, and we need to improve upon it.
    To improve upon it, we are undertaking several initiatives. 
One is within the Program to End Modern Slavery we are trying 
to make sure that there is a prevalence estimate, and the 
University of Georgia Research Foundation, as well as the 
Global Fund, are working hard to determine how could we have 
good modelling for prevalence metrics. To do that I think we 
have to look deeper than just a country-wide prevalence metric, 
to an industry-specific and geographically restrained 
prevalence metric, one that is focused on what is the 
prevalence of domestic servitude in this city, or what is the 
prevalence of agricultural labor that is forced labor, not what 
is the prevalence of trafficking in the entire country. That 
would be like asking what is the prevalence of economic crime, 
when it can vary from securities to fraud, to a con artist. We 
want to focus on different types, so we can measure against it, 
and determine if our interventions are working.
    I would also say that we do not want to stop our work while 
we are waiting on a good prevalence estimate. We do not ask for 
prevalence estimates in all types of crime. No one asks how 
many gigabytes of child pornography exist, and so we just know 
that we need to fight against it. Nobody asks how many kilos of 
cocaine exist in the world. We just know we need to fight 
against it.
    We know that there are victims of trafficking around the 
globe and here in the United States that need help, and while 
we are working on better prevalence estimates, we want to make 
sure that we are doing everything we can to restrain the 
traffickers that are exploiting them.
    Senator Menendez. Thank you. I appreciate that. And I think 
the prevalence estimates are going to be just that, estimates, 
because getting the exact metrics, or even close to exact 
metrics are going to be a real challenge, because how this 
flies under the radar, and frequently it is supported and 
covered by government agencies that are supposed to be in the 
job of determining metrics.
    Thanks for your work. We look forward over the years to 
hearing good reports from you, and particularly we want to hear 
what it is we can do that works. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Senator Cardin.
    Senator Cardin. Well, Mr. Ambassador, first, thank you very 
much for your willingness to take on this extremely important 
position. I also want to acknowledge the extraordinary 
leadership of Senator Corker and Senator Menendez, and the 
members of this committee, to make it clear we will not 
tolerate modern day slavery. And we are prepared to give you 
all the tools you need in order to fight that.
    So I want to take my cue from our chairman, who is always 
very direct with our witnesses, to say I was not satisfied with 
your response to Senator Menendez. I expect you to be an 
advocate in regards to this issue. There is a perception out 
there today that if you are a victim of trafficking, and you 
come forward with law enforcement, and you come forward to seek 
the T visas, and you are not successful, or it is not 
immediate, that there is fear that you are going to get a 
notice to appear, and be deported.
    We need to dispel at its source today, so that we 
understand that those who have been the subject of trafficking 
are victims, we need their cooperation with law enforcement. We 
do not want them to go underground because of fear that they 
are going to be deported. And we need your office to make that 
very, very clear in this environment, in which immigration 
issues are certainly far from being a void from politics in 
this country.
    So I am going to give you another chance to respond to this 
committee, as to your commitment to be the representative on 
those who have been victimized by trafficking, to know that 
they will be protected here in the United States, so that we 
can, in fact, bring successful legal action against the 
perpetrators, and we will protect them as we have in the past, 
so that they know that they are safe here in America.
    Ambassador Richmond. Senator, I appreciate the question. I 
am committed to making sure that the law is clearly enforced. 
And the law provides for the Trafficking in Persons visa, the T 
visa. And I want to make sure that that T visa is available to 
anyone who is entitled to it, that people can apply for it, 
that they are encouraged to apply for it without fear, and be 
glad to use my role at the Trafficking in Persons' office, my 
role on the interagency courting mechanism that I get to lead, 
as well as conversations with my colleagues and other 
departments to make sure that individuals can apply for a T 
visa, and will receive Continued Presence without any sort of 
fear.
    Senator Cardin. So will you get back to this committee as 
to, at least what we have been told, that there is concern 
within this community that if they cooperate and go forward 
with law enforcement, and they do seek a T visa, that they run 
a risk today, because of other agency's priorities, that there 
may be a notice to appear for their deportation? Can you assure 
that you will advocate on behalf of the victims to make that 
clear, that they are safe here in America?
    Ambassador Richmond. I look forward to a continued 
conversation with this committee, both formally and informally, 
and make sure that those concerns are addressed. I will 
definitely be raising these issues, and look forward to making 
sure that the--that all the individuals who are trafficked in 
this country, whether they are U.S. citizens or they are 
without papers, are able to avail themselves of all the 
benefits and services that they are entitled to under the law.
    Senator Cardin. It is not quite as clear as I would like to 
see it. I will take it, and move on. I say that because there 
are countercurrents here in this country on immigration, and we 
know the fear factors that are in the community today.
    We also understand that if victims go underground, we are 
in trouble. And we need to have an advocate who is going to 
recognize that those who have been targeted of traffickers are 
victims. And that is why we pass laws to give them those 
rights. They are not quite as sophisticated to understand the 
differential between coming forward to help and a notice to 
appear, where they are going to be threatened with deportation. 
And those who are sophisticated in the system, want to protect 
the trafficker, will use that to their advantage to get the 
victims to go underground and not cooperate with us. I hope you 
understand that.
    Ambassador Richmond. Sir, I do understand that. I have 
worked with many trafficking victims, including victims who 
have received Continued Presence, victims that I have assisted 
in getting T visas. I am well aware of the concerns that 
victims have, and the wide variety, as they present with 
different personalities, different situations. And there is 
nothing that I will be a part of that is going to serve to 
protect traffickers. Quite the opposite. We want to hold 
traffickers accountable, and make sure that victims are 
protected.
    Senator Cardin. I look forward to working with you on this.
    The Chairman. Thank you.
    Senator Shaheen.
    Senator Shaheen. Thank you, Ambassador, for being here, and 
for your ongoing work to address this issue.
    Can you talk about how the role of the United States in 
setting an example for other countries on the importance of 
ending trafficking, and what that means?
    Ambassador Richmond. Senator, I appreciate the question.
    In our bilateral relationships I think the role of the 
United States, and the policies, and the best practices that we 
have developed can often be of great benefits in our bilateral 
diplomatic relationships. The fact that the United States has a 
robust victim protection system, the fact that it has been 
aggressive at prosecuting trafficking, that it has been 
emphasizing labor trafficking, as well as sex trafficking, that 
it wants to fight trafficking in all its forms, that it wants 
to make sure that we do not prosecute victims for anything 
their traffickers required them to do.
    All these aspirational goals are being put into place, 
perhaps not as well in every circumstance. We have a lot of 
room to improve and to grow. But as we succeed, and have 
successes, as we have our challenges, we are able to dialog one 
on one with countries about each of those, and discuss how 
things can improve in their country as well.
    Senator Shaheen. So are you concerned about the President's 
failure to talk about human rights, and the signal that that 
sends to those countries who we are trying to get to address 
human trafficking?
    Ambassador Richmond. Senator, I know that this 
administration has been quite vocal in its fight against human 
trafficking, from the earliest days of the administration.
    Senator Shaheen. I understand that. I am not asking about 
the policies of the administration. I am asking about the 
President's words, his language that he uses, what he says on 
the world stage.
    Ambassador Richmond. Senator, the President has used very 
strong language to condemn human trafficking, and to commit his 
administration to fighting it in all of its forms. He has been 
very clear that human trafficking is a human rights abuse, and 
that it must end, and that we want to bring the full weight of 
the U.S. government to bear against traffickers.
    Senator Shaheen. And does it send a mixed message to those 
countries that we are trying to get to live up to that standard 
when we fail to take action on human rights abuses in other 
areas?
    Ambassador Richmond. Senator, the office that I get to 
serve in is focused on human trafficking. Obviously, there are 
other human rights abuses at play as well, and they are 
critically important. We want to make sure that all human 
rights are protected in every country around the world, 
including the United States. I think a clear message against 
human trafficking can be a leader in that fight.
    Senator Shaheen. Well, I will tell you that a number of the 
world leaders who I have met with are very confused sometimes 
about what our message is on this issue, because of some of the 
President's statements.
    I want to go back to--and I am sorry I missed your 
testimony, because as I looked at it, you did address the 
Program to End Modern Slavery in it. But to follow-up on 
Senator Risch's question about metrics, can you talk more 
specifically about what other metrics you can use to address 
the effectiveness of the grants that have been awarded most 
recently? I appreciate that we can keep the numbers of, you 
know, how many people participated, what kind of research was 
done, but how do we determine whether it is really effective in 
getting at the root causes?
    Ambassador Richmond. Senator, I appreciate the question 
about metrics. Monitoring and evaluation of our programs is 
incredibly important. It is an area of growth for this 
movement. I think for far too long the anti-trafficking 
movement has been driven by passion and emotion, as opposed to 
metrics and data, and we want to move in that direction.
    There are a number of different monitoring and evaluation 
tools that we can use. The grants that have been given out, or 
the sub-grants that have been given out by the global fund 
under the Program to End Modern Slavery are brand new. They may 
be, in a sense, too early to measure, because those 
announcements have just been made. But there is a measurement 
component and requirement in each of those, and----
    Senator Shaheen. I am sorry to interrupt. I am not trying 
to be critical here. I am trying to better understand the kinds 
of tools that you are using to measure the effectiveness. You 
know, I get the numbers and the statistics that we keep, but 
how do we address some of those other aspects of this problem?
    Ambassador Richmond. I think the key way to measure this is 
to have good industry or sector-specific prevalence estimates, 
to do an intervention, and then measure the prevalence of 
trafficking in that sector, has it decreased? And that is what 
we want to move towards in this movement, to make sure that our 
interventions are actually having a direct response----
    Senator Shaheen. Right.
    Ambassador Richmond.--to stop traffickers, and to care for 
survivors.
    Senator Shaheen. Thank you. Thank you, Mr. Chairman.
    The Chairman. Senator Coons.
    Senator Coons. I am here for two purposes, one, of course, 
to question our very capable witness, but also to thank you for 
your tireless work leading the charge, fighting modern slavery, 
for the hard work that you have done that I think has made an 
enormous difference, both here in the Senate and around the 
world. And to thank you and Ranking Member Menendez for the 
hard work you have both done to make sure that our Trafficking 
in Persons reports are substantive and meaningful, that have 
real metrics, and have a real impact around the world.
    And I look forward to continuing to work with you after 
this Congress in sustaining your ongoing leadership in this 
field. I am so grateful for your leadership at this committee. 
It has been remarkable. And I am hopeful that we will continue 
to have good, and powerful, and regular hearings when Chairman 
Risch takes over the next Congress, and that we will continue 
to do strong and good things together.
    But I just could not let this hearing pass without thanking 
you----
    The Chairman. Thank you.
    Senator Coons.--for what you have done as chairman of this 
committee.
    So if I could then, Ambassador Richmond, it is of genuine 
interest, I think, too all of us to know more about your recent 
visit to Saudi Arabia. I understand Ranking Member Menendez was 
focusing on the Saudi Kingdom's poor record on human 
trafficking. It seems important to me to know whether or not 
you agree with an argument made by Secretary Pompeo and 
President Trump that our relationships with Saudi Arabia that 
are economic in nature are too important for us to risk 
downgrading that alliance by focusing on human rights. In fact, 
I think Secretary Pompeo has an editorial to that effect today 
in the Wall Street Journal.
    Do you think promoting human rights is in line with 
promoting our security interests, and how does your office 
contribute to balancing those two things?
    Ambassador Richmond. I appreciate the opportunity to answer 
that question, Senator. I think that human rights are the 
fundamental underlying pillar beneath the anti-trafficking 
movement, and beneath the Trafficking and Victims Protection 
Act.
    The entire reason trafficking is wrong is because 
individuals have inherent value, and traffickers deny them that 
value, deny them that liberty to work where they want, to get 
up when they want, to control who touches their bodies. And we 
need to make sure that their human rights are protected.
    The Trafficking in Persons Office, where I get to serve 
now, that I get to lead, will make sure that the 
recommendations and the narrative regarding Saudi Arabia's 
approach to trafficking, the efforts that they have taken, are 
clearly identified, and that they are ranked accordingly.
    Our job is to make sure it is a fact-based, evidence-based 
report that we will submit to the secretary, and the President 
can review. Our office is focused solely on that mission, to 
make sure that as we work with the department, with the 
ambassadors around the world, that we are making sure that the 
report is complete and full of integrity.
    Senator Coons. Well, thank you, Ambassador. My concern is, 
I will express here, and in other settings, is that our 
President continues to put economic partnerships, arm sales, 
ahead of what is a fundamental defining virtue of the American 
people and republic, which is that we have put value for like 
human rights, as you have articulated, ahead of transactions, 
and I think we should continue to do that.
    What more could we be doing to engage, the private sector 
to engage, and businesses to take actions against the misuse of 
forced labor around the world?
    Ambassador Richmond. Sir, I think that there is a great 
deal that the private sector can do regarding trafficking, 
particularly when they look at their supply chains. There have 
been several helpful and promising initiatives internationally 
regarding supply chains, making sure that companies can vet 
their supply chains several layers deep to make sure there is 
not forced labor involved. They can be self-critical in that 
regard. That effort needs to grow, and we need to make sure 
that companies that are knowingly engaging supply chains that 
have forced labor in it are held accountable. But we also want 
to make sure that companies are incentivized to vet their own 
supply chains to make sure that they can root our forced labor.
    I think we also need to make sure that we understand that 
even a company of good will who wants to make sure there is no 
forced labor in their supply chain has a very difficult job in 
doing that. In a sense, we are asking them to do the law 
enforcement work of a nation, perhaps halfway around the world, 
that is not doing their own law enforcement work to make sure 
that there are not forced laborers in those factories, in those 
facilities. And we want to make sure that countries around the 
world are able to protect their citizens and to protect others 
who are working there, to make sure that they are not subjected 
to forced labor by traffickers.
    Senator Coons. Well, Ambassador, I think one of the most 
powerful tools we have in the work against human trafficking, 
against forced labor, is engaged and empowered constituents, 
consumers, citizens of this country, who purchase huge amounts 
of products from companies that have supply chains that go into 
some of the most difficult labor environments on earth.
    And to the extent the faith community and the private 
sector, the administration, and this Congress work together to 
make it easier, to make it more based in metrics, for those who 
are active, whether because of their faith, or because of their 
value for human rights, to take steps to do so. That's how we 
make a difference. So I look forward to working with you on 
that important undertaking.
    Ambassador Richmond. Thank you.
    The Chairman. Mr. Ambassador, I do want to say, people on 
this committee care deeply about human rights and trafficking. 
And things are a little raw right now. We have a hearing, 
actually, or an all senators' briefing at 11:00, and some of 
the things around Saudi Arabia certainly have created a little 
bit of rawness. Some of that is being reflected in questions 
that are being asked of you, and also some of the immigration 
issues.
    I just want to say, as one person, having been at your 
swearing in, and knowing that your life commitment to this 
issue, whether you are a democrat or a republican, I cannot 
imagine having someone more committed to this. And I am 
thankful that you are willing to do it.
    I think that as these people and my friends on this 
committee get to know you more closely, in spite of some of the 
other content that we deal with that sometimes causes us to 
express ourselves pretty sharply in this committee, my sense is 
that regardless of what side of the aisle people are on they 
are going to be thankful that someone like you is doing this 
job, and I think they already are.
    Ambassador Richmond. Yes, sir.
    The Chairman. Yes, sir?
    Senator Menendez. Mr. Chairman, I agree with you. We look 
forward to working with the ambassador, but I do not want you 
to think that the raising of Saudi Arabia or of immigration as 
a legitimate issue, where people have fear of coming forward to 
use a visa that we intend them to, is a political context. I 
know Senator Risch painted things sometimes politically here.
    That is a legitimate issue. And I am not going to stop 
raising a legitimate issue simply because people want to cast 
it as political.
    The Chairman. And I, in no way, am casting it as political, 
and I plan at 11:00 to express myself very strongly as it 
relates to other issues. I am just saying that you are here in 
the middle of some rawness as it relates to some other issues, 
and that is just a fact.
    But with that----
    Senator Risch. Mr. Chairman, could I get my two cents worth 
in here?
    Senator Menendez, if I indicated that to you, or was 
offensive, I apologize for that, but look, this is really a 
nonpartisan issue. This is a bipartisan issue. President Trump 
is going to be president for the next 25-and-a-half months. And 
for those of us that care deeply about issues like this, and 
especially Senator Corker, as he has over the years, we want to 
carry that flag forward for Senator Corker, and we want to 
carry that flag forward for the American people. So it behooves 
us all to work together, republicans, democrats, the President, 
the administration.
    Now, sometimes people say things in political context that 
do rub the wrong way, but that should not take our focus off of 
the ball here of what we are trying to do. I think we have got 
the right man in Ambassador Richmond here. I think we can trust 
him on this issue, and I think we should continue to work, and 
to meet, and to--and to explore these issues. And I think 
Senator Menendez certainly raised issues that we should talk 
about, and try to take the rough edges off, and make progress 
as we move forward.
    Thank you, Mr. Chair.
    Senator Menendez. Mr. Chair, if I may.
    I totally agree with Senator Risch, who will be the new 
chairman, that working together, I recognize President Trump's 
going to be there for as long as his term continues. I did not 
hesitate to criticize a president of my own party when I 
thought he was wrong. I am not going to hesitate to criticize 
this president when I think he is wrong. I think constructive 
criticism is also incredibly important to reach a considered 
judgment on how we move forward on issues. And so I am not 
going to pull any punches. I did not do it with President 
Obama, and when I was chairman of this committee, I am not 
going to do it with President Trump.
    But I do agree with you that this issue is bipartisan, 
nonpartisan, and I look forward to working with you on making 
it a continuing legacy of the committee.
    The Chairman. With that, thank you for coming. Thank you 
for the work you are doing, and we look forward to seeing you 
again. And we will call the second panel. Thank you so much.
    I know that, Natalie, you came in a little bit late. We 
have already spoken a little bit to the fact that we are 
thrilled to have both of you here, and certainly appreciate the 
personal commitment that both of you have shown around this 
issue, that you can see, draws a little emotion here on the 
committee itself. But we thank you for being here. We know that 
you have gone to a lot of trouble to be here today, and 
certainly spend a lot of, both of you, your personal time and 
effort around this issue. And it is people like you that calls 
us to be inspired.
    So our first witness today is Natalie Grant, the co-founder 
of Hope for Justice, and a hero in the fight against modern 
slavery.
    Our second witness is Shawna Bader-Blau, the executive 
director of the Solidarity Center, who is also a leader in this 
fight. If you both could summarize your comments in about 5 
minutes, we, again, thank you so much for being here, and look 
forward to your comments.

   STATEMENT OF NATALIE GRANT, CO-FOUNDER, HOPE FOR JUSTICE, 
                      NASHVILLE, TENNESSEE

    Ms. Grant. Thank you.
    Well, thank you, Mr. Chairman, for inviting me to be here. 
I am so honored to be here, and honestly, I woke up this 
morning thinking, ``I am going to be so out of my depth.'' I am 
used to a microphone being in my mouth. I sing all the time, 
and I have no problem speaking, but it is not usually in an 
environment quite like this. So it really is an incredible 
honor for me to be here today.
    [Laughter.]
    Ms. Grant. You know, as I was thinking on the plane here, 
and I was listening to Ambassador Richmond, and I see your 
notes, and I am thinking, ``Oh, my goodness, I do not even have 
notes to talk about this,'' but what I do have is just a story. 
I have my own personal story of how this issue has forever 
wrecked my life.
    And I never thought that I would say that television 
changed my life. I never thought I would say Law and Order 
changed my life. But it truly was an episode of Law and Order 
that I was watching on a day off from touring, when I was home 
in my home in Brentwood, Tennessee. And they depicted a 
gentleman who had an underaged girl in his basement on the 
television show. And I just remember them always saying that 
Law and Order was ripped from the headlines.
    And as I was sitting there in my family room, watching this 
television show, I thought, ``What headline is this ripped 
from?'' This was in 2004. I had never heard the term ``human 
trafficking'' before.
    And so as I was watching it, I thought, ``Well, this is 
ridiculous. Why are they trying to convince us that there are 
people holding people in their basements in the middle of New 
York City?'' So I literally Googled, ``What is human 
trafficking.'' And that is the first time that I realized that 
slavery still exists in this country.
    I actually came across something called the Trafficking in 
Persons report, and I attempted to read it, and I got about two 
sentences in, then I stopped. And I literally then punched in, 
``Faith-based organizations that fight human trafficking,'' 
because as a member of a faith-based music community, I was 
deeply troubled that I had never heard of this issue before.
    I was deeply troubled that people in the church were not 
talking about the least of these, which they talk about so 
often, but that were being ravaged in this way. That is when I 
found an organization, and to make a long story short, a couple 
of months later my husband and I flew to India. They took us 
straight into the red-light district.
    Sorry. I know this is probably the appropriate place to 
cry, but I have never, ever been able to speak about this issue 
in 14 years without weeping, because I saw children for sale on 
the street. I met twin 5-year-old girls who had to have 
reconstructive surgery to their tiny little bodies.
    I saw a 6-year-old girl in a cage, looking at me through 
the bars of cage. She was not screaming. She was not asking for 
anyone to bring her her freedom. It was almost as if she was 
resigned to the fact that this was her reality.
    They allowed us to tour a brothel, because they thought 
that my husband was a potential customer. And as we walked 
through these tiny little cubicles, some with mattresses on the 
floor, some with beds, I will never forget walking past one 
that had a rope tied to the end of a bedpost, and I made the 
mistake of asking why the rope was there. And the gentleman we 
were with said, ``That is because the girl in this room is 15 
years old. She has an 18-month-old child.'' There is no 
childcare, so they tether their children to the end of the bed 
while they are forced to perform their sexual acts.''
    All I can tell you is that I was wrecked that day for life. 
I knew that in that moment this issue demanded my attention and 
my commitment. I did not know what I was doing when I left 
there. I flew back to America, and thought, ``Well, now what do 
I do? I sing in front of thousands of people every weekend. So 
what I am going to do is I am going to get up on that stage and 
I am going to tell everybody I know that this is a reality, 
that this is happening.'' Because if I did not know about it, 
chances are most other people did not know about it either.
    At that time I founded an organization called Abolition 
International. And to be honest with you, my first goal was 
just to raise enough money to build an after-care facility for 
women with children, in India. And that is exactly what we did. 
But what happened in the coming years after that was that I 
learned about the issue in a deeper way.
    I met an organization in England, and we merged together, 
and we are now known as Hope for Justice International. And 
while it says ``co-founder'' underneath my name right there, I 
fear that makes me sound far more important than I am. The 
organization now is across 4 continents, and 8 countries, with 
22 offices. Last year we rescued 37,000 children. It is amazing 
to me the work that the organization is doing, but all I am is 
a girl.
    We saw children for sale on the street. And in 2004, I was 
not a mother yet. But now I am a mother to three daughters, and 
now this issue is more important to me than ever before. Now I 
see that though maybe I do not have the power that you have, I 
have the power of a voice. And if I can tell thousands of other 
people, ``Listen, it is not up to us to do everything. It is 
just up to us to do something.'' Every single one of us can do 
something. Every single one of us, no matter who you are, no 
matter where you are from, no matter what your circle of 
influence, whether you have a platform, or whether you are just 
serving your family, every single one of us can do something to 
make a difference.
    And though I am grateful to get to do it on a large scale, 
I feel like the greatest difference I am making is when my twin 
daughters' sixth-grade teacher came to me and said, ``I was 
talking about the abolishment of slavery in the classroom 
today, and one of your twin daughters raised her hand and said, 
'That is not true. Slavery actually still exists in the world 
today.''' And I realized that I must be doing something right, 
because though my heart swelled with pride in that moment, it 
also broke at the same time, that my daughters are living in a 
world where slavery still exists, where someone's daughter, 
someone's sister, someone's niece, someone's granddaughter is 
being ravaged day in and day out.
    I just say to you that though this issue demands my 
attention and commitment, I believe that the same must be said 
of you, and that it demands your attention and commitment. I 
commit my life to Proverbs 31:8, which says, ``Speak up for 
those who cannot speak for themselves. Ensure justice for those 
being crushed.'' I have seen those who are crushed, and I say 
that together we must do whatever it takes to give them 
justice.
    The Chairman. Thank you. Incredible.
    Shawna.

STATEMENT OF SHAWNA BADER-BLAU, EXECUTIVE DIRECTOR, SOLIDARITY 
                     CENTER, WASHINGTON, DC

    Ms. Bader-Blau. Thank you very much, Natalie, and thank 
you, Chairman Corker. Congratulations on a long career here, 
and for highlighting this issue. And Ranking Member Menendez, 
thanks for inviting us today.
    I am really pleased to share the Solidarity Center's 
perspective on this issue in the global fight to end modern 
slavery. And from my written testimony, which I have submitted 
for the record, I would like to highlight four key points.
    First, modern slavery takes place in the context of rising 
authoritarianism and the global crackdown on civic freedoms 
happening all over the world. Fundamentally, trafficking for 
labor exploitation is the result of the absence of human rights 
and effective governance, and a culture of impunity. The 
failure of governments to protect worker rights in law or of 
employers to respect them in practice creates an environment 
where workers are vulnerable to exploitation, including debt 
bondage, forced labor, and human trafficking.
    Modern slavery happens in countries that restrict civic 
freedoms, including the right to form or join trade unions or 
other worker organizations. In short, modern slavery lives in 
the shadows when there is no one there to expose it. And the 
deck is increasingly stacked against workers when they try to 
stand up for themselves, expose this abuse, and fight back.
    Resurgent authoritarianism globally means that nearly half 
the world's population, 3.2 billion people, live in countries 
where civic space is closed or repressed. With authoritarianism 
comes weakened democratic institutions, including the courts 
and the press. And civil society is sidelined by draconian 
legislation, and overt repression by police and the military.
    It is no accident that of the 22 countries ranked as tier 
three in the State Department's 2018 tier placements, only one 
country, Belize, is considered free, according to Freedom 
House.
    In Turkmenistan, for example, where state-sponsored forced 
labor in cotton production is an ongoing crime, activists 
trying to monitor and expose these atrocious practices have 
been harassed, threatened, and imprisoned. Among them, Gaspar 
Matalaev, a news reporter with Alternative Turkmenistan News. 
Matalaev was arrested in October 2016, 2 days after he reported 
on state-orchestrated forced labor of children and adults in 
the cotton harvest. He remains in jail.
    A couple of weeks ago, I visited Lesotho. In this very poor 
country, thousands of people find work in the garment factories 
that supply major American and international brands, but women 
workers also find something else. Male supervisors demanding 
sex in exchange for pay, promotions, or employment.
    Research and our firsthand experience with women in garment 
factories like those in Lesotho, confirms that women being 
forced into transactional sex to gain or keep employment, and 
having no remedy, if they complain, are strong indicators of 
forced labor. And when women cannot exercise their basic labor 
rights, because they are routinely suppressed by factory 
owners, with total impunity from the state, well, that is a 
democracy problem, too. Put simply, people need to be able to 
dissent and dissent freely and collectively, if we want to end 
modern slavery.
    Second, the ongoing problem with forced labor also really 
needs to be seen in the context of the mass movement of people. 
An estimated 150 million people are migrant workers, and the 
number of refugees and internally displaced persons and asylum 
seekers now tops 68 million people. In the context of rising 
authoritarianism, anti-immigrant rhetoric, and accompanying 
anti-immigrant policy also run high.
    In our work around the world, the Solidarity Center has 
heard firsthand from migrant workers who fear reporting forced 
labor conditions because of the toxic anti-immigrant 
environment that they are experiencing. Moreover, closing 
pathways for humanitarian resettlement, like refugee programs, 
and narrowing grounds for asylum increase the chances that 
those fleeing violence and persecution will be forced to 
migrate through less safe channels, exposing them to a 
heightened risk of trafficking and forced labor.
    For example, the Business and Human Rights Resource Center 
found severe abuses of Syrian refugees in Turkish garment 
supply chains, including forced and child labor. And at this 
moment, as we sit here meeting, the Thai government is actively 
punishing some of the brave Thai labor leaders who have stood 
up against modern slavery, and against anti-migrant 
discrimination.
    It is our measured experience, working in 60 countries over 
20 years, that to address refugee and migrant worker 
vulnerability to trafficking we need to level the playing field 
when it comes to rights and enforcement of rights of people 
working in a country, no matter who they are. When some people 
in a society are treated as lesser, then the idea that they can 
be exploited becomes more accepted, possible, and prevalent. 
Indeed, isn't that the notion that slavery was built on, that 
some people are lesser?
    Third, we need to change our expectations about what 
constitutes accountability to human rights in the private 
economy, especially in supply chains. We still do not see the 
kind of corporate leadership we need to eradicate modern 
slavery. Those factories I spoke of in Lesotho, those factories 
may be owned and operated by Chinese investors, but a 100 
percent of the buyers are international brands, and a great 
many of them are American companies.
    I am not saying that these global companies sourcing there 
want these things to happen. I am saying that they accept 
virtually no responsibility for ensuring it does not happen, 
and we need to change that. We need to be reimagining the human 
rights obligations of companies across supply chains if we want 
to end this abuse. And this committee can do more on that. And 
we can talk about that.
    Fourth and finally, we need our own government to use a 
more comprehensive set of tools in its anti-trafficking tool-
kit. U.S. trade programs can effectively address trafficking 
for forced labor. Recently, the administration announced the 
suspension of trade preferences under the African Growth and 
Opportunities Act to Mauritania, due to its utter failure to 
address hereditary slavery, and we are hopeful that will help. 
But our trade agreements, all of them, can and should include 
binding obligations that reduce and try to eliminate the risk 
of trafficking for forced labor among our trade partners.
    The new U.S.-Mexico-Canada agreement could include 
elimination of recruitment fees, a ban on passport 
confiscation, a requirement to disclose terms and conditions of 
employment, and equal rights for citizen, resident, and migrant 
workers. These provisions could help reduce trafficking for 
labor exploitation, and should be included, and then enforced.
    Successive administrations, too, have allowed the slow 
erosion of a focus on labor rights as part of U.S. human rights 
advocacy and diplomacy around the world. For example, the role 
of labor officers and U.S. embassies. This cannot go on. We 
need their voices, their eyes and ears on the ground. Without 
diplomatic pressure and clear defensive human rights, I fear 
that people will continue to not have the chance to live and 
work in the dignity that everyone deserves.
    Thank you.
    [The prepared statement of Ms. Bader-Blau follows:]

                Prepared Statement of Shawna Bader-Blau

                            i. introduction
    Chairman Corker, Ranking Member Menendez and members of the Senate 
Foreign Relations Committee, I thank you for this opportunity to 
present the Solidarity Center's views on the ``Global Fight to End 
Modern Slavery.'' First, let me convey our appreciation for the 
Committee's leadership in combating all forms of human trafficking both 
here and abroad--including trafficking for forced labor, the most 
prevalent form of trafficking. According to the International Labor 
Organization (ILO), 25 million people around the world are trapped in 
forced labor--and their unpaid work generates an estimated $150 billion 
annually for enterprises around the world. The continued leadership of 
this Committee is much needed to advocate for an aggressive approach to 
ending modern slavery, especially for forced labor, at a time when 
vulnerable communities, such as migrant workers and refugees, are in 
increasing danger.
    The Solidarity Center is the largest U.S.-based international 
worker rights organization. Our mission is to help workers attain safe 
and healthy workplaces, family-supporting wages, dignity on the job and 
greater equity at work and in their community. The Solidarity Center is 
allied with the AFL-CIO and is a member of the Alliance to End Slavery 
and Trafficking (ATEST), a leading U.S.-based coalition that advocates 
for solutions to prevent and end all forms of human trafficking and 
modern slavery in the United States and globally. Building upon more 
than 20 years of experience in promoting worker rights, the Solidarity 
Center continues to raise awareness about the causes and the extent of 
trafficking for forced labor and implements programs with our partners 
worldwide to combat this scourge. These programs address each of the 
four ``P's'' that are part of the anti-trafficking toolkit: prevention, 
protection of victims, prosecution (or as we call it, ``access to 
justice'') and partnerships. Given our global presence, the Solidarity 
Center works with long-term, grassroots local partners to combat 
trafficking in forced labor, including in Africa (Kenya, South Africa), 
the Americas (Mexico), Asia (Bangladesh, Indonesia, Malaysia, Nepal, 
Sri Lanka, Thailand), Europe (Moldova, Ukraine) and the Middle East 
(Bahrain, Jordan, Kuwait, Qatar).
    We increasingly hear the term ``modern slavery'' used to describe 
the exploitation or compelled service of children, women and men that 
results from the myriad forms of coercion and deceptive practices 
traffickers use. Modern slavery is forced labor, debt bondage and 
involuntary servitude, among other severe forms of labor exploitation 
that exist today. Instead of shackles and chains, workers are now 
enslaved through threats, debt and other forms of economic coercion.
    Around the world, workers tell us they have no choice but to risk 
their lives for the chance to earn a living overseas. Their stories are 
harrowing. Kenyan women tricked into traveling to the Middle East as 
domestic workers and ending up enslaved, physically abused and violated 
\1\ in private homes. Migrant workers in Jordan winding up in detention 
\2\ and legal limbo after they escape the exploitative employer who had 
also confiscated their passport. Indigenous workers in Mexico finding 
themselves unpaid and locked in labor camps \3\ on farms that export 
produce to the United States.
    Fundamentally, trafficking for forced labor is the result of the 
absence of human rights and effective governance. The failure of 
governments to protect worker rights in law, or employers to respect 
them in practice, creates an environment where workers are vulnerable 
to exploitation. It is no surprise, therefore, that countries that 
restrict civic freedoms, have weak rule of law and prevent the exercise 
of the right to freedom of speech, assembly, and association, including 
the right to form or join a trade union to represent their interests, 
are countries where trafficking for forced labor is common. That is why 
in our view, any approach to combating trafficking must begin with 
empowered workers who can stand up to exploitation when it occurs. Too 
little effort is being directed toward building worker agency and 
supporting worker representation; instead, voluntary corporate social 
responsibility policies continue to be promoted despite evidence that 
they do little to address the causes of forced labor or provide 
effective remedies to victims once a violation has been committed.\4\
    We must move beyond the notion that ``modern slavery is all about 
bad individuals doing bad things to good people.'' Human trafficking is 
more than just sexual exploitation and more than organized crime. We 
must address what one leading global expert \5\ on the international 
law of human trafficking calls the ``underlying structures that 
perpetuate and reward exploitation, including a global economy that 
relies heavily on exploitation of poor people's labor to maintain 
growth and a global migration system that entrenches vulnerability and 
contributes directly to trafficking.''
    Unfortunately, current global trends, where the rule of law is weak 
and democratic institutions are inhibited, are creating an enabling 
environment for trafficking. We see deepening authoritarianism \6\ 
taking hold in many parts of the world, where the exercise of 
fundamental human rights--such as freedom of speech, assembly and 
association, all essential to a rightsbased approach to combatting 
human trafficking--is being severely curtailed or prohibited. Unions, 
often the largest civil society organization in any country, are 
frequent targets of repression. At the same time, authoritarian and 
populist governments have opted to demonize \7\ migrants and refugees 
for political gain, making their already precarious situation extremely 
dangerous.
    Ending human trafficking requires a holistic approach, where 
prevention, law enforcement, victim services and protection initiatives 
are all implemented in a comprehensive and coherent way. Far too often, 
we see governments being given credit for simply passing a law or 
prosecuting a handful of cases, without any political will to tackle 
the entrenched, systemic causes of trafficking such as corruption, 
employer impunity and lack of civic and workplace freedoms. With a 
shared goal of ending modern slavery in our lifetime, we must address 
the root causes that allows such exploitation to thrive. I will address 
these causes below and provide recommendations as to what the U.S. 
government can and should be doing.
                            ii. root causes
Deepening Authoritarianism
    In a growing number of countries, governments have taken an 
authoritarian turn. Indeed, nearly half of the world's population--3.2 
billion people--live in countries where civic space is closed or 
repressed. \8\ With authoritarianism come weakened democratic 
institutions, including the courts and the press, and civil society 
sidelined by draconian legislation and overt repression by police and 
the military. Trade unions and worker advocates, including journalists, 
have come under intense pressure to cease their activities or face jail 
and/or punishing fines. According to the International Trade Union 
Confederation (ITUC), the number of countries that deny or constrain 
freedom of speech increased from 50 in 2017 to 54 in 2018, and ``three 
of the world's most populated countries--China, Indonesia and Brazil--
passed laws that denied workers freedom of association, restricted free 
speech and used the military to suppress labor disputes.'' \9\ Indeed, 
workers attempting to exercise their rights were exposed to ``murders, 
physical violence, death threats and intimidation in 65 countries in 
2018, up from 59 in 2017,'' reports the ITUC. In Colombia alone, 19 
trade union members were murdered during the year. Anti-corruption 
protests \10\ in Haiti in November resulted in the deaths of at least 
six protesters, following a crackdown on dissent. In Thailand, governed 
by a military junta, Burmese workers who were exploited on a chicken 
farm were sued by their employer for defamation for daring to complain 
about forced overtime and underpayment of wages, both indicators of 
forced labor.\11\
    It is worth noting that of the 22 countries ranked as Tier 3 on the 
State Department's 2018 Tier Placements, only one country, Belize,\12\ 
is considered ``free'' according to Freedom House.\13\ The continued 
high prevalence of human trafficking is clearly a symptom of broader 
challenges to democracy, human rights and governance. In our work 
around the world, we see a strong correlation between governments that 
violate their citizens' (and immigrants') fundamental democratic rights 
and workers who are left vulnerable to human trafficking.
    Several members of this Committee have voiced their support for 
diplomatic and programmatic efforts of U.S. government agencies that 
advance democracy and human rights around the world. Though often 
separate from targeted anti-trafficking programs, this work builds the 
transparent, accountable public institutions that are critical to 
enforcement of anti-trafficking measures, like labor laws and workplace 
inspections, access to justice for victims and anti-corruption measures 
that keep trafficking out of workplaces and whistleblowers safe. When 
we neglect democracy, rights and governance, we silence workers' 
voices; deny them the means to defend their rights, workplace safety 
and incomes; and rob them of legal recourse when their rights are 
violated. When working people have no possibility of decent, dignified 
jobs at home, they migrate abroad for work, enter the illicit economy 
or seek out labor brokers and traffickers--to provide for their 
families.
    We believe the U.S. government should not shift away from 
multilateralism and global leadership in defending human rights around 
the world, or else we risk weakening important global institutions that 
play an important role in fighting human trafficking and the impunity 
that perpetuates it. Human trafficking thrives in the context of 
restrictions on freedoms. We appreciate the Committee's commitment to 
combatting modern slavery and also to advancing human rights and 
democracy, and urge its members to consider these two (often separate) 
streams of work as strongly interconnected when developing policy 
responses and practicing government oversight in its jurisdiction.
Mass Movements of People
    We are witnessing the largest movement of people in human history: 
International migration surpassed 244 million people in 2015, an 
estimated 150 million of whom were migrant workers, and the number of 
refugees, internally displaced persons (IDPs) and asylum seekers now 
tops 68 million people.\14\ In the context of rising authoritarianism, 
anti-immigrant rhetoric and accompanying policy also run high. The 
scapegoating and marginalization of refugees and migrants only 
increases these disenfranchised groups' vulnerability to forced labor 
and other forms of modern slavery.
    In our work around the world, the Solidarity Center has heard 
firsthand from migrant workers who fear reporting exploitation such as 
virtual enslavement, wage theft, forced overtime and gender-based 
violence (again, all indicators of forced labor) because of the toxic, 
anti-immigrant environment pervasive in many cultures and political 
environments in recent years.\15\ Moreover, closing pathways for 
humanitarian resettlement (like refugee programs) and narrowing grounds 
for asylum increase the chances that those fleeing violence and 
persecution will be forced to migrate through less safe channels and a 
heightened risk of trafficking and forced labor. For example, the 
Business and Human Rights Resource Center found severe abuses of Syrian 
refugees in Turkish garment supply chains, including forced labor and 
child labor.\16\ Rohingya refugees fleeing violence in Myanmar are at 
heightened risk for both forced labor and commercial sexual 
exploitation as their precarious status in Bangladesh leads to 
desperate (and unsafe) ways to support themselves and their 
families.\17\
    Migrant workers, whether documented or undocumented, are also 
disproportionately vulnerable to human trafficking. Traffickers--often 
in the form of unscrupulous employers or labor brokers--take advantage 
of irregular migrant worker's lack of legal status to exploit them. 
Even workers in regular migration programs where oversight is 
theoretically stronger, such as guestworker or temporary migration 
schemes (including cultural exchange programs like Au Pairs), can face 
conditions of debt bondage, involuntary servitude and forced labor 
through high recruitment fees that leave them indebted, having their 
visas tied to a particular employer, and threats of forcing workers out 
of status and into deportation.
    It is our measured experience working in 60 countries over 20 
years, that to address refugee and migrant worker vulnerability to 
trafficking, we need to level the playing field when it comes to rights 
and enforcement of rights of people living and working in a country. 
All workers, regardless of status--whether nationals or foreign, 
whether documented or undocumented, whether fleeing conflict or seeking 
family-supporting wages, whether in the informal or formal economy--
should be treated equally when it comes to international recognized 
workplace rights and the ability to exercise them. When some people in 
a society are treated as lesser due to some innate quality (they are 
female or an ethnic minority or non-citizens), then the idea that they 
can be exploited becomes more accepted, possible and prevalent. Indeed, 
that is the very notion upon which slavery has always been based: Some 
people are just lesser.
    Over the past 2 years, the United Nations has embarked on a process 
to negotiate two global frameworks, or compacts: one on safe, orderly 
and regular migration and the other on refugees. The migration compact 
address human trafficking, understanding that migrants have a 
particular vulnerability to this abuse. It also addresses a common trap 
that ensnares workers in forced labor, recruitment fees, promotes the 
ILO's Decent Work Agenda and conventions addressing labor migration, 
and recognizes the role of trade unions and social dialogue in 
advancing decent work for migrant workers. While the nonbinding 
migration compact has some shortcomings, and the United States has 
withdrawn its participation, it could be an important first step in 
developing more comprehensive and aspirational global norms when it 
comes to the rights of international migrants, especially since too few 
countries have articulated national policies extending equality of 
opportunity for and treatment of migrant workers.
Corporate and Legal Accountability
    While governments used to be the primary perpetrators of forced 
labor, today the vast majority of the almost 25 million forced laborers 
globally \18\ are in the private economy, in domestic work, 
construction or agriculture, among other jobs.
    Globally, victims of trafficking for forced labor have access to 
few legal remedies. This is especially true for migrant workers, 
documented or otherwise, who often are excluded from labor law 
protection.\19\ For example, migrant workers are often unable to leave 
their place of work to file a complaint against their employer. This is 
especially true for domestic workers, who represent nearly 4 million of 
the globally enslaved working people each year.
    For example, our organization works on the eastern coast of Kenya 
where jobs are few and poverty is endemic, and many women migrate to 
Saudi Arabia for the promise of a good-paying job as domestic help. An 
entire industry has been built to ship women overseas to clean and care 
for other people's families. Most have little choice but to leave; 
there is no other way to support their family and make a better life 
for their children. These women have told us of the trap set by labor 
brokers and employers. They arrive in the Gulf to find entirely 
different jobs than they were promised. Often in debt from high 
recruitment fees, they have their phones and passports confiscated. 
They are forced to work long hours and to sleep under the stairs or in 
the laundry room. Many are subjected to violence and sexual abuse, and 
held as virtual prisoners--sometimes for years, incommunicado from 
their family--in a country where they do not speak the language. Many 
are infrequently, if ever, paid. And too many escape with their lives, 
but little else, especially justice.
    Their experience is not unique: 26 percent of Indonesian migrant 
domestic workers in the Middle East say they endure long working hours, 
52 percent do not receive any days off, and 88 percent are not paid 
overtime.\20\ And this is not culturally or regionally specific: This 
happens here in the United States. It happens in Europe. It happens in 
Asia. Everywhere.
    This problem of accountability is compounded when trafficking for 
forced labor takes place in the global supply chains of multinational 
enterprises--and when governments fail to hold corporations to account. 
In recent years, governments like the United Kingdom have passed 
transparency laws patterned on the 2010 California Transparency in 
Supply Chains Act, which calls on enterprises to disclose the policies 
that may be in place to combat forced labor by subsidiaries and 
suppliers. While transparency requirements can help encourage companies 
to undertake due diligence to detect and address forced labor risks in 
supply chains, too few are following through in a meaningful way. 
Indeed, a recent report found that ``only a handful of leading 
companies have demonstrated a genuine effort in their reporting to 
identify vulnerable workers and mitigate modern slavery risks.'' \21\ 
The fact that few enterprises are penalized for failing to stem modern 
slavery in their supply chain likely explains the lack of robust 
compliance.
    Corporate social responsibility (CSR) approaches cannot just be 
bandages or window dressing. Non-binding codes of conduct, 
certifications schemes and third-party auditing do not work. For 
example, a recent study found that ``ethical'' certification schemes 
are largely ineffective in combating labor exploitation and forced 
labor in tea and cocoa supply chains.\22\
    We need to move away from CSR to worker-driven social 
responsibility, providing support for workers to express their agency 
and have representation in the workplace. Freedom of association and 
collective bargaining are a key way to do that. From rubber plantations 
in Liberia to households in Hong Kong and along the eastern coast of 
Kenya, the Solidarity Center has seen time and time again how 
democratic worker organizing and collective bargaining can eliminate 
forced labor in a workplace.
Legal Tools to Combat Trafficking
    Some of the best tools currently available are provisions in the 
2008 reauthorization of the Trafficking Victims Protection Act and the 
amended Tariff Act. The TVPRA provides civil action to victims of 
trafficking for forced labor in supply chains. However, we note with 
concern that a federal district court in California, in Ratha v. 
Phatthana Seafood, interpreted the TVPRA to essentially read out of the 
statute liability for those who knowingly benefit from forced labor in 
their global supply chain--in this case Thai shrimp produced by 
trafficked Cambodian workers and imported into California. The 
Solidarity Center joined several other organizations to file an amicus 
brief in an appeal to the Ninth Circuit Court of Appeals to ensure the 
intent of Congress, namely to provide a remedy to workers in global 
supply chains.\23\
    We also commend the amendment to Section 1307 of the Tariff Act of 
1930, which removed the consumptive demand exception, a long-standing 
loophole in the prohibition against the importation into the United 
States of goods made with forced labor. Under the consumptive demand 
exception, companies were able to import goods produced with forced 
labor if the ``consumptive demand'' for those goods in the United 
States exceeded the capacity of domestic production. This meant that 
many goods made with forced or prison labor freely entered the United 
States. After the amendment, the law now simply prohibits the entry of 
such goods--most recently cotton from Turkmenistan and several goods 
from China. The effectiveness of this law will depend on implementing 
regulations, which have yet to be promulgated, and the political will 
of any administration to enforce it.
    We urge this Committee to encourage the U.S. Customs and Border 
Protection (CBP) and the Department of Homeland Security to closely 
monitor supply chains with known forced labor risks. We also urge this 
Committee to ensure the promulgation of new regulations as soon as 
possible, with the consultation of stakeholders. Such regulations 
should make it easier to bring complaints, and shift the burden of 
proof to companies and importers when a product is on the Department of 
Labor's List of Goods Made with Forced or Child Labor. Goods on that 
list should not be imported unless the importer can demonstrate that 
such goods were made free of forced labor or child labor.
Accountability and Trade Policy
    U.S. trade programs can also be tools to address trafficking for 
forced labor. Most recently, the administration announced the 
suspension of trade preferences under the African Growth and 
Opportunities Act to Mauritania due to its utter failure to address 
hereditary slavery in that country. We also note that the work of this 
Committee, and in particular Senator Menendez, regarding trafficking 
issues in Malaysia during negotiation of the Trans-Pacific Partnership 
has borne fruit. The new government is moving to adopt laws and 
institutions necessary to combat trafficking for forced labor.\24\
    Tomorrow, the AFL-CIO will testify at the Office of the U.S. Trade 
Representative (USTR) regarding trade preferences for Thailand under 
the Generalized System of Preferences. Despite several years of 
engagement, trafficking for forced labor there remains a serious 
problem in Thailand, one that is exacerbated by the fact that migrant 
workers are prohibited by law from forming their own worker 
organizations. As such, workers performing some of the most dangerous 
jobs have no ability to assert their rights collectively, and little 
incentive or protection to report forced labor or involuntary 
servitude. Trade tools can be used to advance specific diplomacy with 
Thailand to ensure it undertakes the necessary reforms in law and in 
practice to prevent this scourge.
    Our trade agreements can and should include binding obligations 
that reduce, and aspire to eliminate, the risk of trafficking for 
forced labor among our trade partners. We note that an obligation to 
adopt some version of Section 1307 was included in the labor chapters 
of the TransPacific Partnership and the new U.S.-Mexico-Canada 
Agreement. However, the specific provisions on labor recruitment that 
were recommended by labor rights groups were not incorporated, among 
them the elimination of recruitment fees; a ban on passport 
confiscation; requirement to disclose terms and condition of 
employment; and equal rights for citizen, resident and migrant workers. 
These provisions would help reduce trafficking for labor exploitation 
and should be included.
Conclusion and Recommendations
    We cannot eliminate modern slavery without fundamentally changing 
how labor migration is managed around the world, how companies do 
business and how governments monitor and enforce human and labor 
rights.
Recommendations
    1. Pass the Trafficking Victims Protection Reauthorization Act, 
which contains important provisions co-sponsored by Senators Menendez 
and Rubio related to enhancing the integrity of the annual Trafficking 
in Persons (TIP) report. For the TIP report to be more effective as a 
diplomatic tool, countries should be ranked not just on legislation or 
policy reform but on the actual impact that such policies have on 
curbing human trafficking on the ground. The TVPRA bill also has 
important provisions to codify the prohibition on the charging of 
recruitment fees to workers in federal procurement. Eliminating 
recruitment fees is one of the most effective ways to prevent debt 
bondage, a pervasive form of human trafficking for workers in regular 
migration programs (including guestworker and cultural exchange 
programs).

    2. In addition to supporting the State Department's Office to 
Monitor and Combat Trafficking in Persons (J/TIP), reinforce support 
for USAID (especially the democracy and governance programs and TIP 
specific work of the agency), the State Department's Bureau of 
Democracy, Human Rights and Labor (DRL), and the Labor Department's 
Bureau of International Labor Affairs (ILAB) anti-trafficking and 
forced labor initiatives, especially its technical assistance 
programming. These agencies conduct important work to address the root 
causes of trafficking vulnerability--including poverty alleviation, 
workforce development, trade capacity, research, ending gender-based 
violence and providing support to marginalized communities, such as 
migrant or disabled workers--and provide much-needed technical 
assistance to governments.

    3. Continue to support the End Modern Slavery Initiative (EMSI), 
championed by Senators Corker, Cardin and others on this committee, to 
address root causes of vulnerability to human trafficking. EMSI 
provides an opportunity to leverage funding on a global scale to tackle 
the prevalence of trafficking around the world. EMSI should be looking 
at initiatives that reduce the vulnerability of migrant workers to 
trafficking and promote worker rights all along supply chains, as well 
as other underlying structural causes of trafficking. We also think it 
is crucial to ensure that civil-society and survivor representatives 
have a significant role in the implementation of EMSI, including on the 
Board of Directors of any organization implementing EMSI.

    4. Encourage the State Department to put more diplomatic pressure 
on states to uphold rights. The United States needs to be a strong 
defender of human rights around the world if we are serious about 
combatting modern slavery. This includes a foreign service officer 
corps specifically trained in and given a mandate to prioritize labor 
rights, human rights and the broader agenda for civic freedoms; a 
comprehensive and robust annual Human Rights Report; engaging in 
multilateral initiatives that are connected to advancing human rights 
and the rights of marginalized people, and supporting the work of U.N. 
agencies, such as the ILO. The State Department should also increase 
the number of and support to dedicated labor reporting officers in U.S. 
embassies as they are the frontline for the U.S. government in tracking 
labor rights conditions, including forced labor and other forms of 
trafficking for labor exploitation.

    5. Use trade pressure to eliminate forced labor in supply chains. 
The U.S. government needs to continue to leverage tools such as AGOA, 
GSP, trade agreements and the Tariff Act to pressure governments and 
companies to eliminate forced labor in supply chains. These tools 
should be updated to reflect a renewed focus on labor rights and 
trafficking for labor exploitation, especially provisions that would 
protect migrant workers from these abuses. The closing of the 
consumptive demand loophole was a good first step. Now, we urge 
Congress to insist that the administration promulgate regulations that 
facilitate the effective enforcement of the Tariff Act prohibitions on 
the importation of goods made with forced or child labor. Such 
regulations should make it easier to bring complaints, and shift the 
burden of proof to companies and importers when a product is on the 
Department of Labor's List of Goods Made with Forced or Child Labor. 
Goods on that list should not be imported unless the importer can 
demonstrate that such goods were made free of forced labor or child 
labor. We also urge passage of the The Anti-Trafficking Trade Act, co-
sponsored by Senators Menendez and Portman, which would suspend certain 
trade benefits for countries that do not take steps to combat human 
trafficking.

    6. Currently, business already has responsibilities under the U.N. 
Guiding Principles on Business and Human Rights and the OECD Guidelines 
on Multination Enterprises to respect fundamental workers' rights, 
including a prohibition on forced labor. While important, these are not 
binding. We therefore urge the Committee to support the negotiation of 
the U.N. Treaty on Business and Human Rights, which would direct 
governments in its current draft to adopt laws creating binding 
obligations on business to respect labor rights in their supply chains, 
to undertake mandatory due diligence, and to provide an effective 
remedy to workers when their rights are violated. We would also 
encourage the U.S. to support standard setting in the ILO to respect 
labor rights in supply chains.

    7. Without a doubt, migrant women workers, and domestic workers in 
particular, are at high risk of suffering gender-based violence and 
harassment in the world or work and that is specifically true for 
victims of forced labor and human trafficking. In 2019, the ILO will 
have the opportunity to adopt a new convention on this important issue. 
It is critical that the U.S. support the adoption of a strong 
convention and recommendation, and ratifies the convention as part of a 
comprehensive approach to uplifting the human rights of women and men 
who are victims and survivors of modern slavery.

    Senators, thank you again for the opportunity to testify and for 
your continued leadership in combating trafficking for forced labor and 
other forms of severe labor exploitation around the world. I am 
encouraged by your commitment to finding solutions and welcome your 
questions.


Notes

    \1\ ``Kenya Domestic Workers Find Hope in Union,'' Solidarity 
Center, 2018.
    \2\ ``Migrant Domestic Workers Seek Rights in the Middle East,'' 
Solidarity Center, 2018.
    \3\ ``Product of Mexico,'' Los Angeles Times, 2014.
    \4\ ``Responsibility Outsourced: Social Audits, Workplace 
Certification, and Twenty Years of Failure to Protect Worker Rights,'' 
AFL-CIO, 2017. See also See Mark Anner, Jennifer Bair & Jeremy Blasi, 
Towards Joint Liability in Supply Chains: Addressing the Root Causes of 
Labor Violations in International Subcontracting Networks, 35 Comp. 
Lab. L. & Pol'y J. 1, 5 (2013)( ``there is a growing consensus, at 
least among social scientists, that codes of conduct and auditing 
programs have failed to eliminate, or perhaps even substantially 
reduce, incidents of labor violations in global supply chains.'')
    \5\ ``Selected Works of Anne T. Gallagher,'' BePress.
    \6\ ``Under Threat: Five Countries in Which Civic Space Is Rapidly 
Closing,'' OpenGlobalRights, 2017.
    \7\ ``Contemporary Forms of Racism, Racial Discrimination, 
Xenophobia and Related Intolerance,'' U.N. General Assembly report by 
U.N. Special Rapporteur on contemporary forms of racism, racial 
discrimination, xenophobia and related intolerance, 2018.
    \8\ ``OpenGlobalRights, 2017.
    \9\ ``2018 ITUC Global Rights Index: The World's Worst Countries 
for Workers,'' International Trade Union Confederation, 2018.
    \10\ ``Six Killed in Anti-Corruption Protests,'' CIVICUS, 2018.
    \11\ ``Myanmar Workers Go on Trial for Accusing Thai Chicken Farm 
of Abuse,'' 2018.
    \12\ ``Freedom in the World 2018: Democracy in Crisis,'' Freedom 
House, 2018.
    \13\ And of the 42 Tier 2 Watch-List countries in the 2018 
Trafficking in Persons Report, only five are listed as ``free'' 
according to the Freedom House Index.
    \14\ ``Figures at a Glance,'' UNHCR, 2018. at-a-glance.html
    \15\ ``ILO Indicators of Forced Labor,'' Special Action Program to 
Combat Forced Labor,
    \16\ ``What's Changed for Syrian Refugees in Turkish Garment Supply 
Chains?'' Business and Human Rights Resource Center, 2017.
    \17\ ``Human Trafficking and the Rohingya Refugees Crisis,'' Human 
Trafficking Search, 2018.
    \18\ ``Forced Labor, Modern Slavery and Human Trafficking,'' ILO, 
2018.
    \19\ ``The Rights to Freedom of Peaceful Assembly and of 
Association in the Workplace,'' U.N. Special Rapporteur, General 
Assembly Report, 2016.
    \20\ ``Indonesia Can Improve Opportunities for and Protection of 
Its Migrants Working Abroad,'' World Bank, 2017.
    \21\ ``FTSE 100 and the UK Modern Slavery Act: From Disclosure to 
Action,'' Business and Human Rights Resource Center, 2018.
    \22\ ``The Global Business of Forced Labor,'' Sheffield Political 
Economy Research Institute, 2018.
    \23\ ``Solidarity Center Supporting Trafficked Cambodians,'' 2018.
    \24\ While successive elevations in recent annual TIP Report 
rankings were seen as largely undeserved by civil society and Malaysia 
was once again 'downgraded' to the Tier 2 Watch List in the most recent 
TIP Report, the historic election of the Pakatam Harapan coalition 
government in May 2018 has produced some cause for hope and progress 
with regard to trafficking issues, forced labor and migrant worker 
rights in general. It is crucial that the international community and 
the U.S. government continue to support the advocacy of Malaysian civil 
society organizations (including trade unions) to reform Malaysian 
labor laws and migration policies, and monitor the implementation and 
impact of new initiatives to ensure ongoing forward momentum.

    The Chairman. Thank you. Thank you very much.
    Senator Menendez.
    Senator Menendez. Well, thank you both for some very great 
testimony.
    Ms. Grant, I must tell you that your story is a riveting 
example of how one person committed to an idea or an ideal, and 
a cause, and willing to do something about it can create 
change. And it is really powerful. And I commend you for it. It 
is exceptional.
    I do not have you on my iTunes list, but I have looked you 
up while I am here. What is your favorite song?
    Ms. Grant. Of mine?
    Senator Menendez. Yes.
    Ms. Grant. My favorite song of mine? Probably a song called 
King of the World.
    Senator Menendez. King of the World. All right.
    Ms. Grant. Funny story is that President Obama told me that 
is his, and then he invited me to sing for him, and I got to. 
So that was, outside of this, maybe just a little notch higher 
in the cool department, but this is pretty special, too.
    Senator Menendez. Now you are really being courageous.
    [Laughter.]
    Senator Menendez. But I admire you for it. I admire your 
work. It is an exceptional story about the organization that 
you have helped create, so--what do you find in the work that 
has been a challenge, other than obviously rating the resources 
to reach more people. But what do you find challenging in the 
work that you are doing?
    Ms. Grant. You know, mostly, for me personally, a big 
challenge is getting people to believe it is actually 
happening. I will never forget when I first was starting to 
talk about it, and this was in the church, right? I mean I had 
like a pastor sit me down and say, ``I don't want you to talk 
about that. I don't want you to speak about that.'' And because 
it was just a little bit too dirty, a little bit too 
uncomfortable.
    And that is a topic for another day, but how far the church 
as fallen that we cannot talk about the dirty and the 
uncomfortable. That is the very place we should be able to talk 
about it, because the church is supposed to be a hospital where 
hurting people find help for what they need. But that was, for 
me, the biggest hurdle, was getting people to believe. Speaking 
with law enforcement.
    Actually getting them to believe that trafficking was 
happening in their own communities. It was a huge effort of the 
organization last year. They trained over 1,000 police officers 
on how to recognize trafficking, how to handle a victim. And 
just the little bit that I heard of the testimony earlier, it 
is a huge problem for victims, to be honest, and to testify, 
and to feel like they are going to be protected.
    In this country, the few victims I have had the opportunity 
to meet, they feel as though they are treated like the 
criminal, oftentimes.
    Senator Menendez. Hmm.
    Ms. Grant. That instead of being recognized as a victim, 
they are treated as a criminal, and there has to be something 
we can do to change that.
    I think that as far as the organization, you know, they 
would say that some of the difficulties that they face would be 
in, you know, addressing slavery in the supply chain, and they 
have done that. They have created something called the Slavery 
Free Alliance----
    Senator Menendez. Hmm.
    Ms. Grant.--where businesses can join it. And we have 
several now that have joined. One with employees of 42,000 
people, where they can recognize, okay, this is important. This 
is important.
    And we need to continue to make people aware of it. I see 
it every day. Not like this. I see it in concerts, where people 
are--I see their faces----
    Senator Menendez. Hmm.
    Ms. Grant.--when I tell that story, when I talk about the 
victims. I see the faces of the people sitting in that 
audience, how they start to cry, how they--they are aghast. 
They cannot believe it. And then I see the rage. Something 
happened inside of them that says, ``Not on my watch. Well, 
wait a second.''
    It is amazing to me how I see when people learn about this 
issue, they become passionate about it, because it is the kind 
of issue that if you have a heart beating on the inside of you, 
you cannot--you cannot turn away from.
    Senator Menendez. Thank you. Thank you. You do not have 
notes, but you are doing a great job.
    [Laughter.]
    Senator Menendez. And I appreciate your recognition that 
very often the victim feels that they are the criminal.
    Ms. Grant. Mm-mm.
    Senator Menendez. And we need to deal with that.
    Ms. Bader-Blau, you covered a lot of territory, and a lot 
of it which I think is very important. So let me just quickly 
in the less than a minute that I have left focus in on the 
supply chain question. How do we get incentives, and/or 
consequences to get to have American companies engage in that? 
Because you mention in your testimony that corporate-social 
responsibility does not seem to work as a reality.
    And also on the question of recruitment fees creating 
vulnerabilities to trafficking, if you could succinctly address 
those two.
    Ms. Bader-Blau. Sure. Quickly on the fees. I think the 
simple principle is that the idea of work is that I work and 
you pay me. I should not have to pay to get a job. And 
unfortunately, around the world, people pay what are really 
business costs to get jobs, and they get indebted. They pay 
labor brokers that traffic them, or take them legally around 
the world. They pay for visas. These are all costs of doing 
business that employers should bear the burden of.
    When they do not, and the burden rests on these vulnerable 
and low-wage workers, they end up working 6 and 8 months, in 
our experience, in countries like Saudi Arabia, where they are 
no other human rights available to anyone. They work 
essentially without pay. They work in modern slavery. So I 
think, you know, first of all, we need to completely eliminate 
fees. You should not have to pay to work.
    And the second point on the voluntary corporate compliance 
issue, look, it is the 21st century. It is 2018. We can expect 
more from the corporate citizenship of our major American and 
international brands. We should be demanding something more 
than voluntary corporate compliance.
    We want to see businesses actually step up and commit to 
not just asking the question, do I have slavery in my supply 
chain, but actually working with civil society, organizations 
on the ground that know the answer to that, and committing to 
eliminating that scourge by engaging civil society, including, 
and especially the workers themselves.
    Look, you know, whether it is domestic workers, 
agricultural workers, garment workers, workers know when there 
is forced labor in a factory, because they see it. They are 
with each other, and they know what is happening. When workers 
can come together and have agency and collective voice, they 
can eradicate forced labor. We have seen it all over the world.
    We need businesses to recognize that workers are, and their 
agency are part of the answer, and a core human right that is 
under attack globally around the world, is the right to freedom 
of association, and the right to have unions and collective 
bargaining. And that is a critical need in our global diplomacy 
in the fight against slavery.
    Senator Menendez. Thank you.
    While these two people have been greatly touched by what 
they have seen and are acting in ways to solve the problem, we 
also have Jean Baderschneider today, who is running the Global 
Fund in Modern Slavery, who had a similar experience about 11 
years ago, and has now committed herself to this effort, also. 
I just wanted to recognize her, and, again, thank both of you 
for your testimony.
    Senator Risch.
    Senator Risch. Thank you so much. Thank you both for your 
work, and strong testimony. I think, Ms. Bader-Blau, your 
testimony about the problems is well accepted. One of the 
things that struck me when I joined this committee about 10 
years ago--I spent all my life in public service, and various 
offices, but until I got to this committee, I really hadn't 
focused on the 200 countries in the world.
    I am an American. I grew up here. Life was good for me. I 
grew up somewhat poor, but, you know, in America everyone seems 
to get along pretty well one way or another.
    When I started traveling, I was just astounded at what I 
saw around the world. And many of these countries are allies of 
ours, friends of ours, and transactional partners of ours in 
various things. And then when you pull the curtain back, you 
look and you are just astounded at what you see.
    With 8 billion people now on the planet, this is a problem 
that is pervasive, and the numbers are staggering. I have 
listened carefully to all the suggestions that you have. For 
instance, and please, don't take this as criticism. These are 
difficult issues.
    But the supply chain issue is a great one to focus on. The 
difficulty with that is when you get a large corporation that 
the consumers can really put the screws to and say, ``Look, if 
you do not do things right, we are not going to buy your 
product.'' The problem is, you turn on the internet, and you 
can buy the product from overseas, and have it shipped in, and 
it could have been made by slaves, for all you know.
    So these are really, really difficult problems, simply 
because it is difficult--I do not want to discourage you. We 
all need to redouble our efforts in that regard. And I think 
your work of educating Americans as to what actually goes on 
out there, Ms. Grant, your testimony in that regard is 
powerful, and you need to continue to do that, and Americans 
need to know this. Because like I said, we all grew up so 
comfortably here. The vast majority of Americans grew up 
comfortably.
    Obviously, most people think, ``Well, it could be better.'' 
Well, after you travel around the world, you come back here and 
you say, you know, you just kiss the ground because of what 
have here. And even countries that we view as so civilized 
really all need work, and we need to keep the pressure up. And 
I look forward to partnering with my friends on the other side 
as we move forward on this issue. Thank you.
    Thank you, Mr.----
    The Chairman. Thank you. Senator Kaine.
    Senator Kaine. Thank you, Mr. Chair, and to the witnesses. 
I really appreciate your advocacy and your testimony, and being 
with us to share. I want to applaud the leadership of this 
committee. Being on the Foreign Relations Committee for the 
last 4 years, I have watched this committee be very passionate 
and scrupulous about integrity in the Trafficking in Persons 
report.
    There are often political efforts by administrations of 
both parties to try to cut a corner here, or give somebody a 
break there to accomplish another objective, and the committee 
has stood very, very strong against any efforts to try to 
weaken the rigorous analysis and criticism, if there should be 
criticism in those reports, and I applaud them.
    Ms. Grant, I am particularly happy that you focused on the 
need for church organizations to be involved, and not just in 
the comfortable and easy, but in the uncomfortable. I think 
faith-based organizations do a lot of great work in this area.
    We were contacted by one last year, an interesting 
organization, called A-21, that wanted to just put billboards 
at Dulles Airport and other airports, because places that are 
international arrival zones are places where folks who are 
trafficked often, you know, hit land. And if there is something 
there that can offer them some assistance, they wanted to be 
able to do it.
    We were able to connect A-21 with the airport's authority, 
and they have this campaign ``Can You See Me'' that they are 
doing at Dulles and elsewhere to try to bring more public 
awareness. So this is a faith-based organization doing good 
work. So I applaud you and encourage you to do that.
    I want to ask you, Ms. Bader-Blau, you talked about root 
causes, and I thought that was an interesting one. It seems to 
me that one that you did not mention is subjugation of women. 
If we are talking about sex trafficking, or labor trafficking, 
or other trafficking, women are not the only victims. There are 
men victims of sex traffic. There are men victims of labor 
trafficking, certainly. But it would seem to me, and I am not 
an expert on this area, but it would seem to me that the 
subjugation of women is a key part of this.
    I was just looking at your written testimony on page seven, 
for example, an organization works on the eastern coast of 
Kenya, where jobs are few, and poverty is endemic, and many 
women migrate to Saudi Arabia for the purpose of good paying 
jobs as domestic help.
    An entire industry has been built to ship women overseas to 
clean and care for other people's families. Most have little 
choice, but to leave. There is no other way to support their 
family and make a better life for their children. And these 
women have told us of the trap set by labor brokers and 
employees. Four million of the globally enslaved working people 
each year, as you point out, are in the--doing domestic work.
    And so I think that there is a whole aspect of the 
trafficking problem, of the slavery problem, that is directly 
related to second-class status of women, and subjugation of 
women. And I guess I would like to hear you talk about that in 
the labor slavery side.
    Is it overwhelmingly or predominantly women? I know, 
certainly, there are men victims as well, but I am curious.
    Ms. Bader-Blau. Thank you. The majority of women who 
migrate abroad specifically for employment, globally, actually 
are involved in some form of service sector work, particularly, 
and especially domestic work. And, you know, people often--I 
like to say that, in fact, women, when they travel abroad for 
work, especially into domestic work, are often trading one 
patriarchy they faced at home for another one they arrive at 
work.
    They absolutely face discrimination from labor brokers, who 
will only help them get jobs that are seen as female, first of 
all. So there is discrimination on the recruitment side, 
including in Mexico, and our H-2 programs into the United 
States. Discrimination happens there.
    When they arrive to work in a place like the Gulf 
countries, we are talking about countries that under law 
discriminate against women, in general, citizens or migrants. 
And the migrant workers facing an additional burden of 
discrimination under the law. They do not have equal rights to 
citizens.
    And in domestic work, women are often kept in homes, 
locked, made to sleep in closets, on the kitchen floor. Very 
often we find that--and, in fact, I was just in a meeting with 
a women from Jamaica who became a domestic worker when she was 
14 years old, who was not allowed to eat most of the day by her 
employer. They are treated as slaves, and discriminated against 
specifically----
    Senator Kaine. Some are treated worse than the family pet 
is treated. And as you talk about it, there is sort of a gray 
zone between sex slavery and labor slavery. People come into 
situations where they then are forced to have sex to keep their 
job or to get a promotion. And so there is not a clear bright 
line in some cases between sex slavery and labor slavery.
    Ms. Bader-Blau. No. And I would urge the members of the 
committee and your conversations later about Saudi Arabia, and 
ongoing, to really take advantage of the spotlight on Saudi 
Arabia, to highlight the extreme problem of trafficking and 
forced labor in that country. It is brutal. It is not just 
people being beheaded, it is virtually the entire migrant low-
wage workforce is in some spectrum of trafficking in Saudi 
Arabia, and they need to be held accountable for that.
    Senator Kaine. Great. Thank you.
    Thanks, Mr. Chair.
    The Chairman. Thank you. And before turning to Senator 
Markey, for the first panel, in particular, the record will 
remain open until Monday's close of business. I know this is 
not the type of topic where there is going to be any mischief, 
so Senator Markey----
    Senator Markey. Thank you.
    The Chairman.--I am going to actually cause you, if you 
will, to be chairman, and adjourn the meeting when you finish, 
in that I do need to get down early for this other meeting. I 
want to thank our witnesses for their inspirational service and 
testimony.
    And with that, Chairman Markey, thank you.
    Senator Markey. I thank you.
    The Chairman. Please, if you don't mind, no arms agreements 
or anything like that while we are gone.
    [Laughter.]
    Senator Markey [presiding]. That is next year. Thank you, 
Mr. Chairman. Thank you for your service, too. I very much 
appreciate it. And, again, The Chairman has to work on the 
question of actually human rights in Yemen, and those issues as 
well, which is coming up in another 15 minutes or so.
    Thank you both so much for your incredible leadership on 
these issues, what you have done to help to spotlight it. Just 
very powerful, powerful testimony. So thank you.
    Ms. Bader-Blau, I know that Solidarity actually works on 
issues in Burma. So I would like to just ask you a question. 
Perhaps you could lay out what you think would be the right 
thing for our government to do.
    In Burma, a year after the Burmese military's brutal 
operations led to nearly 1 million people being displaced in 
Bangladesh, there is no relief in sight for the Rohingya. 
Compounding the humanitarian crisis in Bangladesh is the threat 
of human trafficking of Rohingya refugees.
    The International Organization for Migration, as well as 
Refugees International reported in August that thousands of 
Rohingya refugees were at risk of falling prey to human 
traffickers who exploit them sexually and for forced labor.
    The nongovernmental organization, Fortify Rights, has 
highlighted how Rohingya leaving by boat to other Southeast 
Asian countries to escape their current predicament could be 
victims of trafficking networks, similar to 2015, when Rohingya 
victims of trafficking were forcefully detained, abused, and 
sometimes buried in Thailand or Malaysia. The Burmese Navy 
intercepted two boats with 100 Rohingya refugees in the last 
few days.
    Do you agree with those assessments? And do you think that 
the administration is doing enough in order to deal with this 
issue? Do you think that they are sufficiently in conversation 
with the Burmese, and the Bangladeshis, in order to make sure 
that we fight hard on these trafficking issues in this region?
    Ms. Bader-Blau. So when people are found in mass graves, 
who were refugees, who were forced to work without pay in a 
place like Thailand, the answer to your questions is no, we are 
not doing enough.
    When people are trafficked and discriminated against based 
on their religion, and their ethnicity, and their refugee 
status in Bangladesh, because they are Rohingya, or in 
Thailand, or in Malaysia, no, we are not doing enough. It needs 
to be a full-time focus on the--this is where we really see the 
nexus between racism and discrimination against migrants and 
refugees, and closing civic space. These are all countries I 
just mentioned that have really restricted rights environments. 
And so not only are people migrants that are discriminated 
against, there are not even--there is not really in the civic 
space for them to form organizations and fight enough. So no, 
we are not doing enough.
    Senator Markey. Okay. And what would you say to the 
administration right now? Give them their work assignment.
    Ms. Bader-Blau. Oh, I do not know if I have the time. I 
would start by saying that, fundamentally, labor rights need to 
be advanced in our diplomacy, and protected in every single 
country. That includes Malaysia. I am talking about for 
Rohingya.
    Senator Markey. Yes.
    Ms. Bader-Blau. Malaysia, Thailand, and Bangladesh. That 
needs to be a full-time focus of our diplomacy, and 
prioritized, because that is where we are seeing the most 
exploitation, is in forced labor of their--of migration.
    So we need to focus on that, and I think we need to be more 
aggressive with our trade tools. We have GSP in these 
countries. We have other trade tools that we can use, that we 
can actually suspend in order to make the point that we are 
prioritizing the human rights of migrants and refugees.
    Senator Markey. Beautiful. Thank you.
    I cannot tell you how much we all appreciate what you do 
every single day. It will not be forgotten. You have made an 
imprint on the committee, and given us an agenda for what we 
should be working on, with intensity increased on the part of 
each one of us on the committee. We thank you both for your 
testimony.
    And with that, this hearing adjourned. Thank you.
    [Whereupon, at 10:50 a.m., the hearing was adjourned.]

                              ----------                              


              Additional Material Submitted for the Record


Responses of Ambassador John Cotton Richmond to Questions Submitted by 
                        Senator Robert Menendez

    Question. Domestic Workers: Enslavement of domestic workers in 
diplomatic households remains a serious concern. The Department of 
State now conducts in-person interviews of domestic workers brought to 
Washington, DC on A-3/G-5 visas to screen for human trafficking and 
abuse. Secretary Pompeo recently announced that State would expand the 
program to two additional cities, but did not name the cities. While 
Washington, DC has the most abuse of domestic workers by diplomats, New 
York is a close second. In New York, diplomats stationed at the U.N., 
at consulates, and at permanent national missions to the U.N. all have 
the ability to bring in domestic workers on A-3/G-5 visas. These 
domestic workers are not screened for trafficking or abuse:
    Which two cities will State include in this expansion? Will New 
York be one of those cities?
    When will the expansion occur? And when will the program become 
national?

    Answer. The Department of State looks forward to expanding its In-
person Registration program for foreign domestic workers employed by 
foreign mission and international organization personnel. The 
Department of State will announce the two new cities added to the In-
person Registration program in early 2019. Expansion of the program to 
New York remains under consideration. The Department is committed to 
this program and hopes that it can continue to expand to cover foreign 
domestic workers employed by foreign mission and international 
organization personnel throughout the United States.

    Question. Malaysia: Ambassador Richmond, an investigation earlier 
this month by The Guardian found that electronics factories in Malaysia 
still display troubling indications of forced labor, even though we've 
known about such abuses for years. In fact, a 2014 report by the NGO 
Verite funded by the Department of Labor thoroughly documented problems 
in the industry and ultimately led Congress to pass my amendment to ban 
``fast track'' procedures for trade agreements with countries on Tier 3 
of the Trafficking in Persons Report:
    You and I have discussed how the U.S. government should encourage 
Malaysia to take stronger actions against forced labor in the country, 
but how do you plan to convince the private sector to take greater 
responsibility for the safety of trafficking victims in their supply 
chains and ultimately to eradicate imports into the U.S. made with 
forced labor?

    Answer. Private sector action to combat human trafficking in global 
supply chains is critical, and working with the business community is a 
key component of the Trafficking in Persons Office's efforts to prevent 
modern slavery.
    Governments must set clear expectations for private sector entities 
on their responsibility to conduct appropriate due diligence in their 
supply chains to identify, prevent, and mitigate human trafficking. 
This principle not only guides the Trafficking in Persons Office's 
work, the United States, Canada, the United Kingdom, Australia, and New 
Zealand endorsed as a joint approach in the recently released 
Principles to Guide Government Action to Combat Human Trafficking in 
Global Supply Chains.
    The United States government has a number of tools to encourage 
private sector action to combat human trafficking in their supply 
chains. The Federal Acquisition Regulation (FAR) rule, entitled 
``Ending Trafficking in Persons'' prohibits all federal government 
contractors and subcontractors from engaging in human trafficking or 
practices associated with trafficking, such as charging employees 
recruitment fees, using misleading or fraudulent recruitment practices, 
or destroying or confiscating identity documents. The FAR rule also 
requires compliance plans for contracts that exceed $500,000 and are 
performed overseas. Another tool of the federal government is the U.S. 
prohibition on imports produced with forced labor. The Trafficking in 
Persons office works closely with the Department of Homeland Security's 
Customs and Border Protection to assist them in their enforcement of 
this law and to communicate its implications to U.S. embassies and 
missions around the world. This is an important tool for encouraging 
corporate due diligence on human trafficking and the Office will 
continue to support DHS's robust enforcement efforts.

    Question. Supply Chain: The United States currently imports an 
estimated $142 billion worth of goods that are likely to be made with 
forced labor, including $83.3 billion from countries ranked at the 
bottom--on Tier 3 or the Tier 2 Watch List--of the TIP Report:
    As corporations increasingly expand their operations in the global 
marketplace, how can the State Department incentivize companies to 
protect their supply chains from forced labor?
    How are you going to work with your counterparts at the office of 
the U.S. Trade Representative, Customs and Border Protection, the 
Department of Labor, and elsewhere, to ensure that the U.S. cracks down 
on imports made with forced labor?

    Answer. The Trafficking in Persons Office works to incentivize 
private sector action in a few ways and to provide tools to companies 
aiming to reduce the risk of human trafficking in their global supply 
chains.
    The Trafficking in Persons Office has maintained engagement over 
the years with industry associations and multinational corporations to 
advance anti-trafficking due diligence efforts in the business 
community and help individual companies design effective strategies for 
addressing the crime in their specific business operations.
    The Trafficking in Persons Office also collaborates with an NGO 
partner on the website www.ResponsibleSourcingTool.org, which assists 
federal contractors, procurement officials, and other companies to 
better understand the risks of human trafficking in their global supply 
chains and to develop effective risk-management systems. This includes 
sector-specific tools for the seafood sector with plans to expand to 
additional industries.
    Finally, the Trafficking in Persons Office works extensively with 
its interagency colleagues on this issue. The Trafficking in Persons 
Office co-chairs the Senior Policy Operating Group's Procurement & 
Supply Chains Committee. That Committee works to implement the Federal 
Acquisition Regulation. The Office also supports DHS efforts the 
enforcement of the U.S. prohibition on imports produced with forced 
labor. The State Department plays a key role in an interagency working 
group that provides a venue for agencies to assist in the effective 
enforcement of the law. The Department is also working to educate its 
colleagues at embassies and consulates on the implications of the U.S. 
prohibition on imports produced with forced labor and how to 
communicate those to host governments and the local business community. 
The Office connects NGOs working in the field, who are important 
sources of information about conditions on the ground, with colleagues 
at U.S. Customs and Border Protection charged with enforcement. 
Finally, the Office also recently worked with the Department of 
Homeland Security's Customs and Border Protection, the Department of 
Labor, and NGO colleagues to produce a webinar for industry 
stakeholders on the U.S. prohibition on imports produced with forced 
labor and available federal resources for assistance in identifying, 
preventing, and addressing trafficking and trafficking-related 
activities in global supply chains.

    Question. Notices to Appear: Recently, USCIS announced a change of 
policy and would be issuing ``Notices To Appear'' to unsuccessful 
applicants for humanitarian visas, including trafficking visas:
    Can you please describe how this may result in victims being 
reluctant to cooperate with law enforcement investigations and not 
apply for protection?

    Answer. Advocates have voiced concerns to the Trafficking in 
Persons Office about the Department of Homeland Security's (DHS) change 
in policy. As this is a DHS U.S. Citizenship and Immigration Services 
policy, I defer to my DHS colleagues on the rationale behind the change 
and any assessment of its impact.
    The T visa is one of the primary trafficking-specific immigration 
options for trafficking victims and one of the U.S. government's main 
protection tools. I will use my role at the head of the Trafficking in 
Persons Office and in the federal government's anti-trafficking 
interagency coordination group to push for continued access for victims 
of trafficking, without fear, to the protections and immigration relief 
options made available to them by law.

    Question. Fee Waivers: USCIS recently proposed a change in policy 
that would modify the form, instructions, and related guidance for fee 
waiver requests. While applications for humanitarian relief are not 
themselves subject to fees, applications for adjustment of status, 
employment authorization, waivers of inadmissibility, and other 
petitions and applications may carry filing fees. The proposed policy 
impedes access to safety and stability for victims of trafficking and 
other vulnerable populations by imposing new documentation requirements 
and narrowing the options available for demonstrating eligibility for a 
fee waiver:
    Was the Department of State consulted about this proposed policy? 
If so, what steps is the agency taking to ensure fair access to 
protection for particularly vulnerable populations?

    Answer. I refer you to Department of Homeland Security's (DHS) U.S. 
Citizenship and Immigration Services for details about any proposed 
polices. The Trafficking in Persons Office will continue to work with 
the interagency to advocate for appropriate protections for victims of 
human trafficking.



                                  [all]
</pre></body></html>
